U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




              BUREAU OF INDUSTRY
                    AND SECURITY


           U.S. Dual-Use Export Controls for
              China Need to Be Strengthened

                         Final Report No. IPE-17500/March 2006




                            PUBLIC
                            RELEASE

               Office of Inspections and Program Evaluations
                                                   UNITED STATES DEPARTMENT OF COMMERCE
                                                   The Inspector General
                                                   Washington, D.C. 20230


March 30, 2006




MEMORANDUM FOR:                David H. McCormick



                                                                      a: ·
                               Under Secretary for Industry and Security


FROM:                          Johnnie E.                        •

SUBJECT:                                                  se Export controts4
                                                      d (IPE-17500)

As a follow-up to our March 9, 2006, draft repo      tiached is our final report on dual-use
export controls for China, the seventh report required by the National Defense
Authorization Act for Fiscal Year 2000, as amended. As you know, the act mandates that
we issue a report to the Congress on the policies and procedures ofthe U.S. government
with respect to the export of technologies and technical information to countries and
entities of concern by March 30 of each year through 2007. This year's report focuses on
U.S. export controls for the People's Republic of China (China).

While our review found that coordination between the various federal export licensing
agencies was adequate during the dispute resolution process for export license
applications involving China, we identified a number ofareas ofconcern related to U.S.­
China export control activities. We offer a number of specific recommendations on page
42 that we believe will help strengthen these activities, if implemented. This report
contains two classified appendices that have been provided under separate cover.
Appendix C discusses end-use checks in China and is classified CONFIDENTIAL
Appendix D is classified SECRETINOFORN and highlights concerns with the sharing
and utilization of intelligence information within BIS' Export Enforcement.

We are pleased to note that BIS, in its written response to our draft report, indicated that
it has already taken or plans to take action on our recommendations. We request that you
provide us with an action plan addressing the status ofthe recommendations in our report
within 60 calendar days.

We thank you and other members of the BIS staff for your assistance and courtesies
extended to us during our review. If you would like to discuss this report or the requested
lction plan, please call me at (202) 482-4661 or Jill Gross, Assistant Inspector General
for Inspections and Program Evaluations, at (202) 482-2754.

Attachment
U.S. Department of Commerce                                                                                    Final Report IPE-17500

Office of Inspector General                                                                                               March 2006 



                                                   TABLE OF CONTENTS 



EXECUTIVE SUMMARY ............................................................................................................. i


BACKGROUND ............................................................................................................................ 1 


OBJECTIVES, SCOPE, AND METHODOLOGY...................................................................... 13 


OBSERVATIONS AND CONCLUSIONS ................................................................................. 17 


     I. Export Control Regulations and Procedures Related to China Should Be Strengthened.. 17 

        A. BIS regulations raise some conventional weapons concerns ..................................... 17 

        B. BIS’ public statements regarding licenses to China are inconsistent with the EAR .. 21 


     II. BIS’ End-Use Check Programs in China and Hong Kong Need to Be Improved ............ 23 

         A. End-use checks in China still face challenges ............................................................ 23 

         B. BIS needs to more aggressively monitor potential diversions of export-controlled 

            items from Hong Kong to China................................................................................ 23 

         C. BIS needs to improve staffing continuity for its operations in Hong Kong 

            and China .................................................................................................................... 29


     III. BIS’ Monitoring of License Conditions Could Be Enhanced ........................................... 32 

          A. BIS should ensure that there is a technical review of technical documentation 

             submitted by exporters or end users pursuant to license conditions........................... 33 

          B. China post shipment verification license conditions were not properly marked for 

             follow-up..................................................................................................................... 34 


     IV. NIST and NOAA Conduct Various Activities Pursuant to the 1979 U.S.-China 

         Science and Technology Agreement ................................................................................. 36 

         A. NIST’s Science and Technology exchange activities with China .............................. 36 

         B. NOAA’s Science and Technology exchange activities with China............................ 39 


SUMMARY OF RECOMMENDATIONS .................................................................................. 42 


APPENDICES 

  Appendix A: Acronyms ........................................................................................................ A-1

  Appendix B: Interagency Dual-Use Export Licensing Process ............................................ B-1 

  Appendix C: End-Use Checks in China (CONFIDENTIAL)*............................................. C-1 

  Appendix D: Intelligence Sharing Issues for End-Use Check Targeting 

     (SECRET/NOFORN)* .................................................................................................... D-1 

  Appendix E: BIS Management Response ..............................................................................E-1 

  Appendix F: NOAA Management Response .........................................................................F-1 


*Appendices C and D are available separately from the Office of Inspector General
U.S. Department of Commerce                                                                Final Report IPE-17500

Office of Inspector General                                                                           March 2006 



                                         EXECUTIVE SUMMARY

The Inspectors General of the Departments of Commerce, Defense, Energy, and State, in
consultation with the Director of Central Intelligence and the Director of the Federal Bureau of
Investigation, are required by the National Defense Authorization Act (NDAA) for Fiscal Year
2000 to conduct an eight-year assessment of the adequacy of current export controls and
counterintelligence measures to prevent the acquisition of sensitive U.S. technology and
technical information by countries and entities of concern. The NDAA mandates that the
Inspectors General report to the Congress no later than March 30 of each year, until 2007.

The United States controls the export of sensitive goods and technologies for national security,
foreign policy, and nonproliferation reasons under the authority of several different laws. The
primary legislative authority is the Export Administration Act of 1979.1 Under the Act, the
Commerce Department’s Bureau of Industry and Security (BIS) administers the Export
Administration Regulations (EAR) by developing export control policies, issuing export licenses,
and enforcing the laws and regulations for dual-use exports.

Serious concerns exist over the People’s Republic of China’s (China’s) weapons of mass
destruction proliferation record, the adequacy of its export control policies, and its efforts to
obtain sensitive technologies to advance its military capabilities. A critical question is the U.S.
government’s capacity to implement effective controls over U.S. exports to China. In addition,
while current U.S. policy2 supports the Hong Kong Special Administrative Region’s (Hong
Kong) high degree of autonomy established under the Joint Declaration signed by the United
Kingdom and China in 1984 and the Basic Law promulgated by China in 1990, the U.S.
government has been tasked with monitoring Hong Kong’s ability to maintain an effective and
transparent export control regime.

Between FYs 2001 and 2005, the number of China export license applications received by BIS
increased approximately 31 percent. Of the 17,129 total export license applications received by
BIS in FY 2005, 1,772 (approximately 10 percent) were for exports to China. Some U.S. high
technology industries cite export controls as significant barriers to (1) reducing the $193.9 billion
U.S. trade deficit with China in FY 2005 and (2) increasing legitimate U.S. exports to China,
which totaled $38.9 billion. That same fiscal year, the value of approved exports to China
requiring export licenses totaled $2.4 billion (approximately 6.2 percent of total U.S. exports to
China), while the value of denied export licenses equaled $12.5 million (less than 1 percent).
The value of applications returned without action totaled $587.4 million.3

To satisfy the FY 2006 NDAA reporting requirement, the Inspectors General from the
Departments of Commerce, Defense, Energy, Homeland Security, and State, and the Central
1
  Although the act last expired on August 21, 2001, the President extended existing export regulations under
Executive Order 13222, dated August 17, 2001, invoking emergency authority under the International Emergency
Economic Powers Act.
2
  The United States-Hong Kong Policy Act of 1992, as amended, establishes the authority of the U.S. government to
treat Hong Kong as a non-sovereign entity distinct from China for the purposes of U.S. domestic law based on the
principles of the 1984 Sino-British Joint Declaration.
3
  It should also be noted that the existence of U.S. export control regulations towards China might have a
discouraging effect on potential U.S. exports to China that may lead U.S. companies to not apply for export licenses.
                                                          i
U.S. Department of Commerce                                                               Final Report IPE-17500

Office of Inspector General                                                                          March 2006 



Intelligence Agency agreed to conduct a review of U.S. export controls for China.4 Within
Commerce, we sought to evaluate (1) the consistency of BIS’ export control policies, practices,
and procedures regarding China with relevant laws and regulations; (2) the effectiveness of
coordination among federal agencies during the dispute resolution process for export license
applications involving China; (3) the potential for diversion of sensitive commodities from Hong
Kong to China; (4) the effectiveness of BIS’ end-use check program in China and Hong Kong;
and (5) what activities Commerce bureaus are engaged in pursuant to the 1979 U.S. and China
Science and Technology Agreement and, to the extent practicable, whether they are adhering to
export control regulations.5

While our review found that the coordination between the various federal export licensing
agencies was adequate during the dispute resolution process for export license applications
involving China, we identified a number of areas of concern related to U.S.-China export control
activities. Our specific observations are as follows:

Export Control Regulations and Policies Related to China Should Be Strengthened. There
is no regulatory basis to deny an export license application solely on the basis of military end use
if the item is not controlled for “national security” reasons. As a result, military end users in
China may be receiving sensitive U.S. commodities that can be used in the development of
conventional weapons. During the course of our review, we identified two China export license
applications that the U.S. government was unable to deny despite significant concerns over the
risk of diversion to unauthorized end users or end uses.

In addition, we found that BIS’ public statements about its export control policy for China are
inconsistent with the EAR. Specifically, while the EAR states, “[i]tems may be approved even
though they may contribute to Chinese military development or the end-user or end-use is
military,” BIS officials have repeatedly stated that BIS does not approve export licenses to
military end users in China. This inconsistency results in a lack of transparency to exporters and
may cause difficulties in implementation and application of export controls within the
interagency export licensing community (see page 17).

BIS’ End-Use Check Programs in China and Hong Kong Need to Be Improved. End-use
checks, an important part of the license review and enforcement process, verify the legitimacy of
dual-use export transactions controlled by BIS. A pre-license check (PLC) is used to validate
information on export license applications by determining if an overseas person or firm is a
suitable party to a transaction involving controlled U.S.-origin goods or technical data. Post
shipment verifications (PSVs) strengthen assurances that exporters, shippers, consignees, and

4
  Although not mandated by the NDAA for FY 2000, the Department of Homeland Security Office of Inspector
General participated in this year’s review.
5
  The NDAA for FY 2003 [Public Law 106-398, Section 1207(d)(2)(F)] requires the Commerce Office of Inspector
General to assess the extent to which programs and activities conducted under the Agreement Between the
Government of the United States of America and the Government of the People’s Republic of China on Cooperation
in Science and Technology, signed in Washington, DC on January 31, 1979, as amended and extended (hereafter
referred to as the S&T Agreement) are carried out in compliance with export control laws and regulations, especially
those governing deemed exports. The term “deemed export” derives from Section 734.2(b)(2)(ii) of the EAR, which
states “any release of technology or source code subject to the EAR to a foreign national… is deemed to be an
export to the home country or countries of the foreign national.”
                                                         ii
U.S. Department of Commerce                                                     Final Report IPE-17500

Office of Inspector General                                                                March 2006 



end users comply with the terms of export licenses, by determining whether goods exported from
the U.S. were actually received by the party named on the license and are being used in
accordance with the license provisions. BIS Export Control Officers (ECOs) conduct end-use
checks in China and Hong Kong.

While the reluctance of the Chinese government to allow requested end-use checks has often
precluded the U. S. government from performing many checks, agreement to the End Use Visit
Understanding (EUVU) by both countries in April 2004 afforded BIS the ability to conduct end-
use checks on a wider spectrum of licensed goods and technologies in China. Nonetheless, the
Chinese government has periodically slowed end-use visit cooperation since agreement to the
EUVU. In addition, a number of the terms for conducting end-use checks outlined in the
agreement are somewhat restrictive. Furthermore, we found that neither PLCs nor PSVs were
being performed within prescribed time limits. We present our specific concerns on this issue in
a classified appendix to this report (see Appendix C, classified CONFIDENTIAL).

Based on our review of BIS’ Hong Kong end-use check program, we determined that BIS is not
aggressively enough monitoring potential diversions of export-controlled items from Hong Kong
to China. Specifically, BIS’ policy at the time of our review sought to have



          Given the relative ease of conducting end-use checks in Hong Kong compared to
China (due the size of the territory and the lack of host government restrictions on conducting
such checks), it seems reasonable that more end-use checks can be done.

In addition, BIS was not adequately targeting PSVs for shipments that can be exported to Hong
Kong without a license but would require a license to China.
                                   . However, four shipments were covered by a license
exception and were eligible for re-export from Hong Kong to China without a license. As a
result, these particular PSVs were an inefficient use of ECO resources. We identified two main
reasons for the poor targeting of “no license required” shipments to Hong Kong, including (1)
inadequate upfront research by the Office of Enforcement Analysis (OEA) and (2) inadequate
intelligence sharing between the Office of Export Enforcement and OEA.

Finally, we noted that BIS does not have a formal staffing plan in place to help ensure continuity
in its assignments of ECOs in Hong Kong and China. Specifically, there is currently no pool of
talent within BIS (e.g., a law enforcement agent with Mandarin Chinese language skills) from
which to draw replacement ECOs. Moreover, the ECO in Hong Kong is scheduled to depart post
in May 2006 (after recently extending his assignment) and the term of the current ECO in China
expires in December 2006. BIS recently informed us that it has selected a candidate for the
Hong Kong position, but he is not expected to arrive at post until July 2006 since he will have to
obtain basic law enforcement training (see page 23).

BIS’ Efforts to Ensure Compliance with License Conditions Could Be Enhanced. The
ability to place conditions on a license is an important part of the license resolution process, as
well as an additional mechanism to monitor certain shipments. Of the 55 standard license

                                                 iii
U.S. Department of Commerce                                                                 Final Report IPE-17500

Office of Inspector General                                                                            March 2006 



conditions, six require the licensee to submit export documentation to BIS regarding the
shipment of a controlled commodity. A seventh condition, referred to as “Write Your Own”
(WYO), allows licensing officers to formulate unique requirements, which may also include
reporting requirements. Export Administration is responsible for monitoring five of these
conditions (including the WYO condition), and Export Enforcement the remaining two.

While BIS has a process to track whether or not exporters actually submit documentation
pursuant to six of the seven license reporting conditions6 provided the licenses are properly
marked, it does not require licensing officers to actually review the documentation. As a result,
we identified 11 China cases that required exporters to submit technical documentation pursuant
to conditions uniquely formulated by the interagency licensing agencies that did not receive a
technical review. Without a substantive, technical review of the documentation, BIS cannot
determine whether the exporter (and/or end user) is complying with the intent of the license
conditions.

In addition, we identified five China licenses that required a PSV but were not properly marked
by the licensing officer with “Condition 14.”7 Instead the text of the PSV condition was
recorded in the WYO condition despite a countersigning process meant to ensure that licenses
applications are processed appropriately, including making sure that license conditions are
accurately reflected on the license applications. As such, these licenses were not entered into
Export Enforcement’s tracking system, which is monitored by OEA. While the exporters
submitted the required shipping documentation to BIS for three of the five licenses,8 this
information was not forwarded to OEA. Because of the time that elapsed between the date of
shipment and OEA’s actual receipt of the shipping documents after our inquiry, OEA was not
able to initiate the PSV request per the terms of the April 2004 End Use Visit Understanding. As
a result, BIS cannot determine whether the goods involved in these cases were diverted to
unauthorized end users or end uses (see page 32).

NIST and NOAA Conduct Various Activities Pursuant to the 1979 Agreement with China
on Science and Technology. In 1979, the governments of the United States and China entered
into an agreement to promote cooperation in the field of science and technology. Under this
agreement, individual U.S. government agencies may engage their Chinese counterparts in
activities to promote the exchange of information and expertise in specific areas of science and
technology. The Commerce Department’s National Institute of Standards and Technology
(NIST) and the National Oceanic and Atmospheric Administration (NOAA) both maintain active
protocols under the agreement.9



6
  Licenses requiring exporters to submit post shipment reports on high-performance computer exports to certain
countries are monitored separately from Export Enforcement’s Conditions Follow-up Subsystem.
7
  When a licensing officer marks “Condition 14” on a license application, the license is automatically entered into
Export Enforcement’s Conditions Followup Subsystem and targeted for subsequent monitoring. Exporters are
required to submit copies of Shipper’s Export Declarations to OEA following the initial shipment, which then
initiates a PSV.
8
  According to BIS, shipments had not yet been made against the remaining two licenses as of January 17, 2006.
9
  According to the Department of State, a total of six Cabinet-level Departments and four independent federal
agencies maintained active protocols under this agreement as of April 2005.
                                                         iv
US. Deparlffll!llt of Commerce                                               Final Report IPE-l 7500

Office of Inspector Gelleral                                                            March 1006



Overall, we found that NIST appears to be complying with export control regulations with
respect to activities undertaken pursuant to the 1979 S&T Agreement. Specifically, we inspected
12 of the 129 EAR-controlled items at the Gaithersburg, Maryland campus to determine whether
Chinese national visitors could have access to the controlled technologies. We found that
although long-term Chinese foreign national visitors were not always vened for security
purposes prior to gaining access to some rooms or laboratories that contained EAR-controlled
items, those items were locally secured such that they were restricted from access. In addition,
NIST reported that all shorHerm Chinese foreign national visitors are escorted by NIST
personnel at all times and are not allowed to access EAR-controlled technology. Further, NIST
has instituted a program to conduct an "upfront" review of its research activities to determine
whether technology used and/or created by NIST researchers and their staff (including foreign
guest researchers) is subject to U.S. export control laws.

During the course of our fieldwork at NOAA, we found that it was in the process of conducting
an inventory of EAR-controlled items at its facilities where foreign nationals (including some
Chinese foreign nationals) were present or that contained critical infrastructure. NOAA
completed its initial inventories of EAR-controlled technology at these facilities in December
2005 and made a preliminary determination that no deemed export licenses were required.
According to OAA, on February 16,2006, BIS provided favorable feedback regarding
NOAA's inventories and assessment, including OAA's conclusion that there are no instances
where deemed export licenses are needed for any foreign nationals working in NOAA facilities.
In addition, NOAA presentations and publications developed under science and technology
activities appeared to contain publicly available information and. therefore, would not be subject
to dual-use export controls. Finally, Commerce's Office of Security informed us that no Chinese
foreign national visitor or guest researcher is given unescorted access into NOAA facilities until
after the completion and adjudication of a background investigation. While it appears that
Chinese foreign nationals did not have access to EAR-controlled technology, we did not verify
the controls in place limiting foreign national access (see page 36).

We also found that em 10 ees from both NIST and NOAA who traveled to China




This report contains two appendices that contain classified information. Appendix C, as noted
above, discusses end-use checks in China and is classified CO FIDE TIAL. Appendix D is
classified SECRET 'OFOR and highlights concerns with the sharing of intelligence
information between Export Enforcement's Office of Export Enforcement and its Office of
Enforcement Analysis that could be helpful in targeting end-use checks in Hong Kong.




                                                v
U.S. Department of Commerce                                                  Final Report IPE-17500

Office of Inspector General                                                             March 2006 





On page 42, we list a summary of the recommendations we are making to address our concerns.



In its March 23, 2006, written response to our draft report, the Under Secretary for Industry and
Security stated that BIS had taken or is in the process of taking steps to meet the report’s
recommendations. In addition, NOAA’s written response to our draft report stated that it agrees
with our overall findings and recognizes the continued need to heighten awareness within its
research community to ensure compliance with the Export Administration Regulations. Where
appropriate, we have made changes to the report and recommendations in response to both
formal and informal comments from the two agencies. We discuss pertinent aspects of their
responses in appropriate sections of the report. The complete responses from BIS and NOAA
are included as appendixes to this report




                                                vi
U.S. Department of Commerce                                                               Final Report IPE-17500

Office of Inspector General                                                                          March 2006 



                                              BACKGROUND 


The United States controls the export of dual-use items for national security, foreign policy, and
nonproliferation reasons under the authority of several different laws. Dual-use items are goods
and technologies determined to have both civilian and military uses. The primary legislative
authority for controlling the export of dual-use commodities is the Export Administration Act
(EAA) of 1979, as amended.12

Under the Act, the Department of Commerce’s Bureau of Industry and Security (BIS)
administers the Export Administration Regulations (EAR) by developing export control policies,
issuing export licenses, and enforcing the laws and regulations for dual-use exports. In FY 2005,
BIS had 361 full-time equivalent staff members and an appropriation of approximately $67.5
million. Its two operating units principally responsible for export controls are Export
Administration and Export Enforcement.

U.S.-China Relations and Dual-Use Export Control Concerns

                        China is a communist state with the world’s largest population
                        (approximately 1.3 billion) and one of the world’s fastest growing
                        economies. In the last 14 years, its economy has grown at an average
                        rate of 10 percent; its gross domestic product (GDP) grew 9.5 percent in
                        2004 and the World Bank projected GDP growth of 9.3 percent in 2005.
                        China has become the world’s third largest trading nation behind the
United States and Germany, and is an important trading partner of the United States. U.S.
exports to China totaled $38.9 billion in FY 2005, making it the fifth largest export market for
U.S. exports. However, Chinese imports to the United States in FY 2005 exceeded $232.9
billion.13 The United States is also a significant investor in China, with its investment there
growing from $2 billion in 1995 to $15 billion in 2004.14

China’s export control system has been criticized in the past by many western nations for its
insufficiency in controlling the exports of sensitive technologies and weapons to nations of
global and regional security concerns. However, China has been trying to improve certain
aspects of its export control system. For example, China is a signatory of the Nonproliferation
Treaty, the Chemical Weapons Convention, the Biological Weapons Convention, and the
Comprehensive Test Ban Treaty. Further, China became a member of the Nuclear Suppliers
Group, a multilateral control regime for nuclear technologies, in 2004.15


12
   Export Administration Act of 1979, as amended, sec. 3; 50 U.S.C app. sec. 2402(2). Although the Act expired on
August 20, 2001, the Congress agreed to the President’s request to extend existing export regulations under
Executive Order 13222, dated August 17, 2001, thereby invoking emergency authority under the International
Emergency Economic Powers Act.
13
   U.S. Census Bureau, Trade in Goods (Imports, Exports and Trade Balance) with China, available at
www.census.gov/foreign-trade/balance/c5700.html, accessed January 18, 2006.
14
   U.S. Government Accountability Office. China Trade: U.S. Exports, Investment, Affiliate Sales Rising, but Export
Share Falling, GAO-06-162, December 2005.
15
   China has submitted its application to join the Missile Technology Control Regime, but member states have been

                                                        1

U.S. Department of Commerce                                                              Final Report IPE-17500

Office of Inspector General                                                                         March 2006 



China’s Military Modernization Strategy and Acquisition of Foreign Technologies

Public statements by the Chinese government and a recent study by the U.S. Department of
Defense support the understanding that China seeks
to modernize its military through an aggressive
program of domestic industrial reform and
                                                             Some Technologies Sought
acquisition of key weapons and technologies from
                                                                        by China
foreign sources that it currently lacks domestically.16
Specifically, China’s so-called “grand strategy”            • Information Technology
employs three main components: (1) “selective               • Microelectronics
modernization” of its existing strengths in electronics
                                                            • Nanotechnology
and missile-related technologies to further develop its
                                                            • Space Systems
capabilities in command, control, communications,
computers, intelligence, surveillance and                   • Innovative Materials
reconnaissance (commonly referred to as C4ISR),             • Propulsion Systems
and precision-strike weapons; (2) “civil-military           • Missile Systems
integration” aimed at reforming China’s defense             • Computer-aided
industries; and (3) acquisition of advanced foreign            Manufacturing and Design
technologies that can be used to enhance its military
                                                          Source: U.S. Department of Defense
capabilities.17

To achieve its military modernization plan, the
Chinese government has employed its “Three-Ways Policy,” which entails: (1) importation of
foreign technologies, (2) joint development with foreign entities, and (3) domestic research and
development.18 As indicated in the Chinese government’s outline for the Tenth Five-Year Plan
for National Economic and Social Development (2001-2005), China still continues to seek a
number of high technologies (see box above).19

U.S. Dual-Use Export Control Policies and Practice Toward China

The U.S. government’s continuing concerns over China’s human rights violations and the threat
of proliferation of weapons of mass destruction have resulted in the maintenance of economic
sanctions towards China even as U.S.-China economic relations continue to deepen. One of the
prime sources of U.S. export controls toward China today are the Tiananmen Square sanctions,20
which were enacted following the Chinese government’s response to the demonstrations at


resisting China’s admittance. In addition, China has begun participating in plenary sessions of the Wassenaar 

Arrangement—a multilateral control regime for conventional weapons and related dual-use technologies—at the 

urging of the United States, but is not a member. 

16
   U.S. Department of Defense, Office of the Secretary, The Military Power of the People’s Republic of China. 

Washington, DC: U.S. Department of Defense, 2005; Keith Crane, Roger Cliff, Evan Medeiros, James Mulvenon,

and William Overholt, Modernizing China’s Military: Opportunities and Constraints, MG-260. Santa Monica, CA:

RAND Corporation, 2005. 

17
   Keith Crane, et al, 154-157. 

18
   U.S. Department of Defense Office of the Secretary, 23. 

19
   Ibid. 

20
   Section 902 of the Foreign Relations Authorization Act, FYs 1990 and 1991 (P.L. 101-246; 22 U.S.C. 2151 note).


                                                        2

U.S. Department of Commerce                                                                  Final Report IPE-17500

Office of Inspector General                                                                             March 2006 



Tiananmen Square in 1989. Some of the most pertinent sections include: (1) the prohibition of
U.S. arms exports to China, (2) restrictions on certain U.S. exports of dual-use items (e.g., items
controlled for crime control and regional stability), and (3) U.S. export and licensing restrictions
on Chinese entities of concern that have been found to have engaged in proliferation of missiles
and/or weapons of mass destruction.21

Further, the United States controls dual-use exports to China for reasons of national security,
chemical and biological weapons proliferation, nuclear proliferation, missile technology,
regional stability, and crime control. These controls are primarily derived from international
multilateral export control regimes, and the lists of items controlled are mutually agreed upon
between participating states. According to BIS, it generally practices a policy of denial for
exports of dual-use items to Chinese military end users and other entities that have significant
ties to the military.

Industry Concerns Over U.S. Dual-Use Export Controls for China

Despite recent increases in U.S. exports to China, the U.S. business community continues to
have concerns about the U.S. government’s dual-use export control policies toward China and
their perceived impact. Some U.S. high technology industries cite export controls as significant
barriers to reducing the $193.9 billion U.S. trade deficit with China in FY 2005 and increasing
legitimate U.S. exports to China, which totaled $38.9 billion. That same fiscal year, the value of
approved exports to China requiring export licenses totaled $2.4 billion (approximately 6.2
percent of total U.S. exports to China), while the value of denied export licenses equaled $12.5
million (less than 1 percent). 22 Applications returned without action totaled $587.4 million.

Nevertheless, it should be noted that certain sectors within the U.S. high-technology industry are
impacted significantly more by dual-use export controls than others, as many companies in those
sectors tend to develop and market specialized technologies and products that may be deemed
sensitive for national security reasons and, thus, more strictly controlled. Further, the existence
of U.S. export control regulations towards China can have a discouraging effect on potential U.S.
exports to China that may lead to self-imposed restrictions by U.S. companies in order to avoid
potentially lengthy license application processing times and license denials.

U.S. Export Control Policies and Practice Toward Hong Kong

                         China and the United Kingdom agreed to the terms of Hong Kong’s
                         reversion from the United Kingdom back to China in their 1984 Joint
                         Declaration. The declaration calls for Hong Kong to be a Special
                         Administrative Region of China that “will enjoy a high degree of
                         autonomy” except in the conduct of defense and foreign affairs. Under
                         the “one country, two systems” formulation, Hong Kong is to remain a
separate customs territory and retain its status as a free port for 50 years.

21
  Congressional Research Service, China: Economic Sanctions. Washington, DC: CRS, May 18, 2005: 1-2.
22
  Approval of a license does not necessarily mean that the export will occur within the same fiscal year or at all
because licenses are valid for two years and many are not acted upon by the exporter for various reasons.

                                                          3

U.S. Department of Commerce                                                                                        Final Report IPE-17500

Office of Inspector General                                                                                                   March 2006 



The United States-Hong Kong Policy Act of 1992 calls upon the U.S. government to continue to
treat Hong Kong as a separate territory with respect to economic and trade matters and to support
Hong Kong’s continued access to sensitive technologies so long as such technologies are
protected. Therefore, the current U.S. export control policy toward Hong Kong is less restrictive
than that applied to China. Specifically, the U.S. government applies different licensing policies
and standards to Hong Kong than it does to China, reportedly because of Hong Kong’s ability to
maintain an effective export control system and concerns over China’s proliferation and military
activities. Thus, Hong Kong receives preferential licensing treatment. For example, for many
dual-use items (e.g., “composite structures” or laminates, certain types of ball bearings, and
certain optical sensors), exporters do not need to submit license applications to obtain prior U.S.
government approval for exports to Hong Kong, while those items would require a license for
export to China. Further, approval is generally granted even when an export license to Hong
Kong is required (see Figure 1).

Figure 1: Hong Kong Dual-Use Export License Applications Processed by BIS
                              160
                              140                      133
     Number of Applications




                                         118 120 122
                              120
                                    99
                              100
                                                                                                        78
                              80
                              60
                                                                                             37 34 43
                              40                                                                             25                    28
                              20                               8   5     5          3                                          0
                                                                                0                                  0   0   0
                               0
                                          Approved                     Denied            Returned Without Action       Pending
                                          FY2001             FY2002                 FY2003         FY2004          FY2005

Source: Export Administration, Bureau of Industry and Security

Dual-Use License Application Process for Exports to China

When BIS receives a license application, either manually or electronically, it is entered into the
Export Control Automated Support System (ECASS).23 ECASS screens all new applications to
determine whether the listed parties (1) have registration numbers in ECASS or need numbers
assigned and (2) raise concerns or Aflags@ that require the application to be referred to the Office
of Export Enforcement (OEE).24 Applications flagged by the system are simultaneously referred
to OEE and the licensing officers (LOs) in Export Administration. Unflagged applications are
referred only to the LOs for processing.




23
  ECASS is an unclassified system that processes and stores dual-use export licensing information for BIS.
24
  Generally, applications referred to OEE are those involving parties on BIS’ watchlist, which lists parties identified
as warranting increased scrutiny for export license purposes. OEE agents may also put flags on certain parties that
they are interested in seeing, such as parties involved in an ongoing investigation.

                                                                                    4

U.S. Department of Commerce                                                                Final Report IPE-17500

Office of Inspector General                                                                           March 2006 



According to Executive Order 12981,25 BIS has nine days to conduct its initial review. During
this review, the LO first verifies the export control classification number (ECCN) the applicant
obtained from the Commerce Control List (CCL). The CCL lists commodities, software, and
technology subject to the export licensing authority of BIS. Each ECCN contains a brief
description of the item(s). Items that are subject to the EAR but not listed on the CCL are
designated as AEAR99."26

After verifying the ECCN, the LO reviews the license requirements and license exceptions for
that ECCN. The LO then (1) determines the reasonableness of the end use specified by the
exporter, (2) documents the licensing history of the exporter, (3) documents the licensing history
of the ultimate consignee or end user(s), (4) documents the reason(s) for not referring a license
application to the other agencies (if applicable), and (5) provides a written recommendation on
whether to approve or deny the application. After the LO’s review is completed, the application
is referred to the Departments of Defense, Energy, and State unless those licensing referral
agencies have delegated their decision-making authority to Commerce.27

In addition, as of November 2003, BIS requires its LOs to forward all China export license
applications to the Central Intelligence Agency’s Weapons Intelligence, Nonproliferation, and
Arms Control Center (WINPAC) for an end-user review. It should be noted that both agencies
are currently working on a new protocol outlining the specific procedures for WINPAC’s export
license review process, including China applications.

Under the Executive Order, the referral agencies must provide a recommendation to approve or
deny the license application to the Secretary of Commerce within 30 days of receipt of the
referral and all related required information. To deny an application, the referral agency is
required to cite both the statutory and regulatory basis for denial, consistent with the provisions
of the EAA and the EAR. An agency that fails to provide a recommendation within 30 days is
deemed to agree with the decision of the Secretary of Commerce (see Appendix B for a flow
chart depicting the licensing process).

Most export licenses for China are issued with conditions that require the exporter to abide by
certain restrictions. The conditions are primarily used to control proliferation of the commodity
by limiting the end-use or restricting access to the commodity to specific end users (see Chapter
III for more discussion on license conditions).

Dispute Resolution Process for China Export License Applications

If there is disagreement on whether or not to approve a pending license application after the 30­
day review period, the application is referred to a higher-level interagency working group called
the Operating Committee (OC), which meets weekly. Under Executive Order 12981, the OC has
25
   Executive Order 12981, as amended—Administration of Export Controls, December 5, 1995. 

26
   EAR99 essentially serves as a “basket” designation for items that are subject to the EAR but not listed on the 

CCL. EAR99 items can be shipped without a license to most destinations under most circumstances unless certain
prohibitions apply (e.g., export to an embargoed destination). The majority of U.S. exports are EAR99 items.
27
   BIS refers licenses to the Department of Justice only when the item is controlled for reasons relating to the
protection of encryption technologies.

                                                         5

U.S. Department of Commerce                                                                           Final Report IPE-17500

Office of Inspector General                                                                                      March 2006 



representatives from the Departments of Commerce, Defense, Energy, and State. Non-voting
members of the OC include appropriate representatives of the CIA and the Joint Chiefs of Staff.
The Secretary of Commerce appoints the OC chairman who considers the recommendations of
the referral agencies before making a decision. While the OC Chair has the authority to decide
most cases at this level without having to reflect the recommendations of the majority of the
participating agencies, we found that the OC Chair’s decisions for China cases were generally
based on interagency consensus.28

The number of China export license                          Figure 2: Determinations for China Export
applications escalated to the OC dropped                    License Applications Escalated to the OC
significantly between FYs 2004 and 2005
                                                                                       70




                                                              Number of Applications
(see Figure 2 for a breakdown of the                                                   60
                                                                                            56
determinations for these licenses).                                                    50
                                                                                       40        29
Within five days of the OC chair’s decision,                                           30  19
a licensing referral agency may appeal or                                    7
                                                                                       20
                                                                                 2     10       2
escalate the decision to the Advisory
                                                                                        0
Committee on Export Policy (ACEP). The                      Approved         Denied       Returned
ACEP meets monthly if there are                                                         Without Action
applications to decide. It is chaired by the                       FY 2004         FY 2005
Commerce Assistant Secretary for Export
Administration, and includes Assistant           Source: Bureau of Industry and Security
Secretary-level representatives from the
Departments of Defense, Energy, and State. The ACEP also includes non-voting representatives
from the CIA and the Joint Chiefs of Staff. The ACEP’s decision is based on a majority vote.
Of the 13 China export license applications escalated to the ACEP in FY 2004, 10 were
approved and 3 were returned without action.29 In FY 2005, only three China export license
application were escalated to the ACEP, 2 were approved, and one was denied.

Within five days of an ACEP decision, any dissenting agency may appeal the majority decision
to the Export Administration Review Board (EARB). The Secretary of Commerce chairs the
EARB, and its members include the Secretaries of Defense, Energy, and State. The Chairman of
the Joint Chiefs of Staff and the Director of Central Intelligence are non-voting members of the
EARB. The EARB=s decision is based on a majority vote. Finally, within five days of the
EARB decision, any dissenting agency may make a final appeal to the President. No export
license applications for China were escalated to the EARB in FYs 2004 or 2005.




28
   Executive Order 12981, as amended, provides one exception to this rule for “ . . . license applications concerning
commercial communication satellites and hot-section technologies for the development, production, and overhaul of
commercial aircraft engines . . . ” For these applications, the chair of the OC is to report the “majority vote decision
of the OC” rather than his/her decision.
29
   According to the EAR, applications are typically “returned without action” by BIS for the following reasons: (1)
the applicant has requested it, (2) a BIS export license is not required, (3) BIS has not received adequate information
regarding the transaction, or (4) BIS is unable to contact the exporter to obtain additional information.

                                                           6

U.S. Department of Commerce                                                                                        Final Report IPE-17500

Office of Inspector General                                                                                                   March 2006 



Overall, we found that the interagency escalation process for disputed export license applications
allows officials from dissenting agencies a meaningful opportunity to seek additional review of
such cases.

China Export License Application Trends

During FYs 2001 through 2005, the number of dual-use export license applications for China
increased approximately 31 percent from 1,313 to 1,722. The total number of all export license
applications (including deemed export license applications)30 BIS received increased roughly 58
percent from 10,839 to 17,129 during the same period (see Figure 3).

Figure 3: Export License Applications BIS Received: China vs. All Countries
                              20000
     Number of Applications




                                                                                                                               17129
                              16000                                                                        15018
                                                                                      12805
                              12000          10839               10927


                               8000

                               4000                                                                 1728                1722
                                      1313                1108                 1255

                                  0
                                       FY2001              FY2002               FY2003               FY2004              FY2005
                                             Applications Received for China          Applications Received for All Countries

Source: Export Administration, Bureau of Industry and Security

Of the 17,129 export license applications BIS received during FY 2005, 1,722 (approximately
10.1 percent) were for exports to China. Of that number, 1,058 (approximately 61.4 percent)
were approved, 26 (roughly 2.5 percent) were denied, and 332 (about 19.3 percent) were
returned without action (see Figure 4 for a breakdown of BIS’ determinations for these licenses).




30
  The total number of deemed export license applications for China has decreased over the past several years.
Specifically, approximately 53 percent of all China export license applications was for deemed exports in FY 2001
compared to 18 percent in FY 2005.



                                                                           7

U.S. Department of Commerce                                                                                       Final Report IPE-17500

Office of Inspector General                                                                                                  March 2006 



Figure 4: China Dual-Use Export License Applications Processed in FYs 2001-200531
                              1400
                                                       1313
                              1200
                                                          1058
     Number of Applications




                              1000   919         880
                              800
                                           751

                              600


                              400
                                                                                         338 293 328 358 332                       306

                              200
                                                                 56 64 47 53 26                                                4
                                                                                                                  0    0   0
                                0

                                           Approved                  Denied            Returned Without Action          Pending
                                                 FY2001          FY2002       FY2003               FY2004             FY2005

Source: Export Administration, Bureau of Industry and Security

Trends in Technologies Sought by China Through Export Licensing Process

Most of the export license applications to China in FYs 2004 and 2005 involved technologies
categorized under electronics, materials processing, computers, and telecommunications and
information security (see Table 1 for a full listing of the number of export license applications
BIS received for each CCL category). According to BIS, a significant part of these applications
was for deemed exports.

Table 1: BIS License Applications for China by CCL Category, FYs 2004-2005
                                                                                                          Applications*    Applications*
  CCL                                                                                                      Received in      Received in
 Category                          Description of Category                                                  FY2004           FY2005
    0        Nuclear Materials, Facilities, and Equipment                                                      11               12
    1        Materials, Chemicals, "Microorganisms," and Toxins                                               160              190
    2        Materials Processing                                                                             503              520
    3        Electronics                                                                                      530              673
    4        Computers                                                                                        155              303
    5        Telecommunications and Information Security                                                      421              529
    6        Lasers and Sensors                                                                                78               55
    7        Navigation and Avionics                                                                           22               37
    8        Marine                                                                                             7                4
    9        Propulsion Systems, Space Vehicles, and Related Equipment                                         13               32
              Classification used for items subject to the EAR but not on the
  EAR99 CCL                                                                            97               139
*Note: Because applications may contain a request to export more than one technology, the number of
applications in this column does not equal the total number of China export applications BIS received during FYs
2004 and 2005.
Source: Export Administration, Bureau of Industry and Security

31
  As of November 2005, 4 and 306 export license applications to China received by BIS in FY 2004 and FY 2005,
respectively, remained pending and have not been processed. These include applications for deemed exports.

                                                                                  8

U.S. Department of Commerce                                                                                       Final Report IPE-17500

Office of Inspector General                                                                                                  March 2006 



Export License Application Processing Times

According to BIS, average processing times for license applications involving China have fallen
by almost 53 percent from 80.2 days in FY 2001 to 38.3 days in FY 2005 (see Figure 5 for BIS’
average processing times in “Executive Order”32 days for export license applications to China
versus all countries).

Figure 5: BIS Average Processing Times in Executive Order Days: All Countries vs. China,
FYs 2001-2005
                           90          80.2
                                                                                   76.6
                           80                               73.1
     Number of E.O. Days




                           70
                           60
                           50   44.9                 45.1                  45.3                           45.4
                                                                                                   34.9                        38.3
                           40                                                                                           30.1
                           30
                           20
                           10
                           0
                                 FY 2001               FY 2002              FY 2003                 FY 2004              FY 2005
                                       All Licenses: BIS Average Processing Time          China: BIS Average Processing Time


Source: Export Administration, Bureau of Industry and Security

End-Use Checks in China and Hong Kong

End-use checks are an important part of the export licensing process that help determine whether
the end users or intermediary consignees are suitable recipients of sensitive U.S. items and
technology and would likely comply with applicable license conditions. End-use checks consist
of pre-license checks (PLCs) and post shipment verifications (PSVs) and may be requested by
any of the executive agencies involved in the interagency licensing process.33 A PLC is
conducted to establish the bona fides of a foreign entity involved in the export transaction while
the license application is being reviewed. A PSV is conducted on a foreign entity after the
license has been approved and the item has been shipped to help determine whether the licensed
item(s) is being used in accordance with the license conditions.

End-use checks in China and Hong Kong are currently conducted by Export Control Officers
(ECOs), one each based in Beijing and Hong Kong. ECOs are BIS export enforcement agents
who hold the rank of commercial officer in the Commercial Section of U.S. embassies and



32
   Executive Order (EO) 12981 prescribes processing times and does not take into account the number of days an
application is put on “hold without action”. Thus, the term refers to the actual processing time in the license review
and referral process, beginning with the day an export license application is received by BIS pursuant to the terms of
Executive Order 12981.
33
   Pursuant to Executive Order 12981, these agencies are Commerce, Defense, Energy, and State.

                                                                            9

U.S. Department of Commerce                                                              Final Report IPE-17500

Office of Inspector General                                                                         March 2006 



consulates.34 ECOs handle various in-country export control activities, including conducting
end-use checks.

End-Use Check Trends in China

BIS end-use checks conducted in China have
              There are four main categories of end-use check results:

• 	 Favorable: at the time the party of the transaction in question was visited, it appeared to be
       either a suitable recipient (for PLCs) or a reliable recipient (for PSVs) of the licensed
       commodities.

• 	 Unfavorable: the subject of the transaction violated one or more license terms or conditions;
       or the subject refused to meet with the designated U.S. government personnel and allow the
       end-use check to be completed.

•      Limited: the end-use check was conducted but was not completed consistent with all
       requirements stipulated in BIS’ end-use check guidance. For a PSV, this could apply to
       situations where the bona fides of the end user and end use were verified, but certain license
       conditions were violated (e.g. intermediary was not supposed to take possession of the item
       but did).

•      Not-conclusive: the end-use check was conducted but was not completed (e.g., a PSV was
       conducted but the stated end use could not be verified because the item was not in use yet).




34
     BIS has additional ECOs stationed in Abu Dhabi, United Arab Emirates; Moscow, Russia; and New Delhi, India.

                                                        10 

U.S. Department of Commerce                                                               Final Report IPE-17500

Office of Inspector General                                                                          March 2006 



End-Use Check Trends in Hong Kong

End-use checks in Hong Kong were conducted by BIS’ Sentinel teams35 or Commercial Service
officers at the U.S. consulate in Hong Kong until March 2004, when a BIS ECO was
permanently stationed there.




1979 U.S.-China Agreement on Cooperation in Science and Technology

On January 31, 1979, the governments of the United States and China entered into an agreement
to promote cooperation in the field of science and technology (S&T Agreement).36 Under the
agreement, individual U.S. government agencies may sign protocols with their Chinese
counterparts to promote exchange of information and expertise in specific areas of science and
technology.37 Cooperative activities under these protocols include (1) exchanges of information
and data on technical developments and practices, (2) exchanges of scientists and engineers for
training purposes, and (3) collaborative research and joint organization of symposia, seminars,
and lectures.


35
   Sentinel teams, which are composed of domestic BIS special agents, are deployed to selected regions of the world
to conduct end-use checks.
36
   The NDAA for FY 2003 [Public Law 106-398, Section 1207(d)(2)(F)] requires the Commerce Office of Inspector
General to assess the extent to which programs and activities conducted under the Agreement Between the
Government of the United States of America and the Government of the People’s Republic of China on Cooperation
in Science and Technology, signed in Washington, DC on January 31, 1979, as amended and extended are carried
out in compliance with export control laws and regulations, especially those governing deemed exports. The term
“deemed export” derives from Section 734.2(b)(2)(ii) of the EAR, which states “any release of technology or source
code subject to the EAR to a foreign national… is deemed to be an export to the home country or countries of the
foreign national.”
37
   According to the Department of State, a total of six Cabinet-level Departments and four independent federal
agencies maintained active protocols under this agreement as of April 2005.

                                                        11 

U.S. Department of Commerce                                                             Final Report IPE-17500

Office of Inspector General                                                                        March 2006 



The Commerce Department’s National Institute of Standards and Technology (NIST) and
National Oceanic and Atmospheric Administration (NOAA) maintain active protocols under the
agreement. Specifically, during FYs 2004 and 2005, NIST had one active protocol covering
metrology and standards.38 During that same time period, NOAA had two protocols in effect,
including one that covered atmospheric sciences and was managed by the National Weather
Service (NWS). The other covered marine and fisheries sciences and was managed by the Office
of Oceanic and Atmospheric Research (OAR).




38
 In September 2005, NIST entered into a second protocol covering chemistry, physics, materials, and engineering
measurement sciences. However, this protocol was not active during the period of our review.

                                                      12 

U.S. Department of Commerce                                                                 Final Report IPE-17500

Office of Inspector General                                                                            March 2006 



                            OBJECTIVES, SCOPE, AND METHODOLOGY

The Inspectors General of the Departments of Commerce, Defense, Energy, and State, in
consultation with the Director of Central Intelligence and the Director of the Federal Bureau of
Investigation, are required by the National Defense Authorization Act (NDAA) for Fiscal Year
2000, to conduct eight annual assessments of the adequacy of current export controls and
counterintelligence measures to protect against the acquisition of sensitive U.S. technology and
technical information by countries and entities of concern. This is the seventh review under the
NDAA requirement.

To comply with the NDAA’s FY 2006 requirement, the Offices of Inspector General39 (OIG)
agreed to assess the effectiveness of the U.S. government’s export control policies and practices
with respect to preventing the unauthorized transfer of sensitive U.S. technologies and technical
information to China. Although current U.S. export control policy treats Hong Kong as a non-
sovereign entity distinct from China with less restrictive controls on licensed commodities, our
review also focused on the risk of diversion of export-controlled commodities from Hong Kong
to China.

Within Commerce, our objectives were to evaluate (1) the consistency of BIS’ export control
policies, practices, and procedures regarding China with relevant laws and regulations; (2) the
effectiveness of coordination between the various federal licensing agencies during the dispute
resolution process for export license applications involving China; (3) the potential for diversion
of sensitive commodities from Hong Kong to China; (4) the effectiveness of BIS’ end-use check
program in China and Hong Kong; and (5) what activities Commerce bureaus are engaged in
pursuant to the 1979 U.S.-China Science & Technology Agreement and, to the extent
practicable, whether they are adhering to export control regulations.

We conducted our evaluation from May 2005 through January 2006, under the authority of the
Inspector General Act of 1978, as amended. This evaluation also was carried out in accordance
with the Quality Standards for Inspections issued by the President’s Council on Integrity and
Efficiency in 2005. At the end of our review, we discussed our findings and conclusions with
BIS’ Under Secretary, Deputy Under Secretary, and other senior BIS officials. We also briefed
other key Commerce officials from the National Institute of Standards and Technology, the
National Oceanic and Atmospheric Administration, and the Office of the Secretary.




39
     This year’s review also included the participation of the Department of Homeland Security’s OIG.

                                                          13 

U.S. Department of Commerce                                                 Final Report IPE-17500

Office of Inspector General                                                            March 2006 



Review of Export Controls Related to China and Hong Kong

Our methodology included the following activities:

U.S. Interviews. Within BIS, we spoke with the Deputy Under Secretary, Assistant Secretary
and the Deputy Assistant Secretary for Export Administration, and the Deputy Assistant
Secretary for Export Enforcement. Within Export Administration, we met with the Director of
the Office of Exporter Services (OExS), the Directors of the Offices of Nonproliferation and
Treaty Compliance and of Strategic Trade and Foreign Policy Controls, as well as staff from
each office. Within Export Enforcement, we met with the Director of the Office of Export
Enforcement, the Director of the Office of Enforcement Analysis (OEA), and their staff. We
also met with both the current and a former chairperson of the Operating Committee and staff, as
well as staff from BIS’ Office of Chief Counsel. Within the International Trade Administration,
we spoke with officials from the Commercial Service (CS), Market Access and Compliance, and
Manufacturing and Services.

We also spoke with officials from federal agencies directly involved with or knowledgeable
about U.S. dual-use export control policies and procedures related to China. Within the Central
Intelligence Agency, we spoke with analysts from the Center for Weapons Intelligence,
Nonproliferation, and Arms Control and the Office of Asian, Pacific, Latin American, and
African Analysis. Within the Department of Defense, we spoke with officials from the Defense
Technology Security Administration, the Air Force’s Office of Special Investigations, the Naval
Criminal Investigative Service, and the Counterintelligence Field Activity. Within the State
Department, we interviewed staff from the Bureaus of East Asian and Pacific Affairs;
Intelligence and Research; Nonproliferation; Oceans and International Environmental Scientific
Affairs; and Political-Military Affairs.

In order to better understand the views of industry on U.S. export controls for China prior to our
overseas visit, we met with several domestic U.S. industry associations, including the American
Chamber of Commerce, the National Association of Manufacturers, and the U.S.-China Business
Council. We also attended several meetings of BIS’ technical advisory committees, specifically
those dealing with information systems, materials processing and equipment, regulations and
procedures, and sensors and instrumentation. We also met with officials from the Hong Kong
Economic Trade Office in Washington, D.C.

Overseas Fieldwork. As part of our review, we traveled to Hong Kong and China to assess
U.S. dual-use export control operations. We interviewed officials at the U.S. Consulate in Hong
Kong, and the U.S. Embassy in Beijing, China. In Hong Kong, we met with the ECO and
accompanied him on three end-use visits to Hong Kong entities. We also spoke with the CS
Hong Kong’s Senior Commercial Officer and Deputy Senior Commercial Officer. In addition,
we met with the U.S. Consul General, the Deputy Principal Officer and the heads of the
consulate’s consular, economic, and political sections. Finally, we met with officials from the
Department of Defense, Homeland Security’s Immigration and Customs Enforcement (ICE), the
Federal Bureau of Investigation’s Legal Attaché, and other relevant U.S. agencies in Hong Kong.



                                               14 

U.S. Department of Commerce                                                    Final Report IPE-17500

Office of Inspector General                                                               March 2006 



While in Hong Kong, we also met with host
government representatives from the Trade &
Industry Department and the Customs & Excise
Department. As part of these meetings, we visited
the Lok Ma Chau Border Control Point between
Hong Kong and Shenzhen, China, to observe Hong
Kong’s customs operations where we received a
presentation and tour by the Control Points
Command Chief Superintendent and his officers.
We also met with a representative of the Hong
Kong Trade Development Council to learn about
this organization’s efforts to promote export control
compliance among Hong Kong companies.                   Lok Ma Chau Border Control Point: Cargo traffic
                                                        crossing from Hong Kong into Shenzhen, China
In China, we met with the ECO and accompanied
her and officials from the Chinese Ministry of Commerce (MOFCOM) on a visit to a Chinese
company in Guangzhou that was the subject of a prior end-use check in June 2005. We also met
with CS’ Senior Commercial Officer, the Deputy Senior Commercial Officer, the Commercial
Representative who handled end-use visits for three months in FY 2005, and the Commercial
Specialist who currently assists the ECO in her duties. Within the embassy, we spoke with the
Deputy Chief of Mission and the heads of the U.S. embassy’s consular; defense; economic;
environment, science, technology, and health; and political sections. We also met with
Homeland Security’s ICE Attaché and other relevant U.S. government officials. In addition, the
Inspector General and OIG staff met with the Director General of MOFCOM’s Department of
Scientific and Technological Development and Trade in Technology and his staff to discuss the
progress of end-use visits in China and to assess the Chinese government’s views on U.S. dual-
use export controls.

While in China, we also met with representatives from U.S. companies in the aircraft
manufacturing, computer technology and software, cooling equipment, electronics,
petrochemicals, and telecommunications industries. In addition, we met with officials from
several trade and industry associations in-country, including the American Chamber of
Commerce, U.S.-China Business Council, Association for Manufacturing Technology, China
Aerospace Science and Technology Corporation, Quality Brands Protection Committee, and
Semiconductor Equipment and Materials International.

Following our overseas visit, we met with a former ECO to Beijing. We also briefed the Under
Secretary and Deputy Under Secretary for Industry and Security on our preliminary findings.

Review of export control laws and regulations, relevant BIS guidance, and other
documents. We examined current and prior legislation, executive orders, and related
regulations, including the EAR, and prior OIG and GAO reports on export controls. In addition,
we reviewed the following documents, covering the period of FYs 2004 and 2005 (unless
otherwise indicated):



                                                15 

U.S. Department of Commerce                                                                  Final Report IPE-17500

Office of Inspector General                                                                             March 2006 



     • 	 Complete licensing histories for 146 China and Hong Kong cases processed at the OC
         and ACEP;
     • 	 ECASS China and Hong Kong end-use check summary data (FY 2001-2005);
     • 	 Response cables from post for China and Hong Kong end-use checks that were
         initiated and/or completed in FYs 2004-2005 and their corresponding licensing histories;
     • 	 Export control documentation and program materials maintained by the export control
         officers in Hong Kong and China; and,
     • 	 BIS directives and procedures related to license monitoring.

Review of NIST and NOAA Activities under the S&T Agreement

Our methodology included the following activities:

Interviews at NIST and NOAA. At NIST, we interviewed key management staff from the
Office of International Academic Affairs, the Chief Counsel’s Office, Office of the Chief
Information Officer, Emergency Services Division, and Commerce’s Office of Security at NIST.
In addition, we interviewed key management officials and staff members from five of the seven
main NIST laboratories: Materials Science & Engineering; Electronics & Electrical Engineering;
Manufacturing Engineering; Physics; and Information Technology Laboratories.

At NOAA, we spoke with employees from NWS and the National Ocean Service (NOS) in the
metropolitan Washington, DC, area who had sponsored multiple Chinese foreign nationals
during FYs 2004 and 2005.40 In addition to NWS and NOS, we also spoke with managers and
key representatives from OAR, the National Marine Fisheries Service, the National
Environmental Satellite, Data, and Information Service, and the Office of Marine and Aviation
Operations to ascertain their understanding of deemed export controls. We also talked with
managers and staff from the Office of the Chief Administrative Officer, the Office of the General
Counsel, and Commerce’s Office of Security at NOAA.

Review of documentation related to the 1979 S&T Agreement. We reviewed the texts of the
four protocols – two for each bureau – that were entered into by both NIST and NOAA with the
Chinese government, lists of Chinese foreign national visitors and guest researchers who visited
NIST and NOAA facilities, and lists of the NIST and NOAA employees who visited China under
these protocols.41 We also reviewed NIST and NOAA documentation regarding the 1979 S&T
Agreement. Finally, we reviewed NIST and NOAA travel policies and regulations as well as
Office of Security policies and regulations on foreign national access to Commerce facilities.

We also spoke with the Director of the Department’s Office of Security and other OSY senior
managers and staff concerning OSY’s foreign national visitor clearance process and its
counterintelligence briefing program for Commerce travelers to China.


40
  NOS employees sponsored Chinese foreign nationals who were located at either OAR or NWS facilities.
41
  NIST did not explicitly identify Chinese national visitors as participants of protocol-driven activities. Thus, our
review included all Chinese citizens visiting NIST during FYs 2004-2005, excluding those who were permanent
U.S. residents.

                                                          16 

U.S. Department of Commerce                                                   Final Report IPE-17500

Office of Inspector General                                                              March 2006 



                          OBSERVATIONS AND CONCLUSIONS 


I. 	   Export Control Regulations and Procedures Related to China Should Be
       Strengthened

The current dual-use export control regulations do not prevent the Chinese military from
receiving U.S. commodities that can be used in the development of conventional weapons.
Specifically, according to BIS, there is no regulatory basis to deny an export license application
for items the United States has determined should be controlled only for nonproliferation reasons
that potentially could be used to enhance China’s military capabilities solely on the basis of
military end-use if the item is not controlled for “National Security” (NS) reasons. In addition,
BIS’ public statements about export policy for military end-users in China are not consistent with
export control regulations. BIS publicly states that it has a policy of denial for exports to
military end-users in China, but the regulations provide only a limited range of items subject to
the denial policy.


A. 	   BIS regulations raise some conventional weapons concerns

According to BIS, there is currently no basis in the EAR to deny an export license application
solely on the basis of military end use if the exported item or technology is not controlled for NS
reasons under the CCL. As a result, Chinese military end users may be receiving sensitive U.S.
commodities that could be used in the development of conventional weapons. Specifically,
based on our review of license applications escalated to the OC and the ACEP in FYs 2004 and
2005, we found two instances where licenses were approved even though all of the licensing
review agencies agreed that there were significant concerns over the risk of diversion to
unauthorized end users and/or end use.

Reasons for Export Control

The Export Administration Act (EAA) of 1979, as amended, provides for several categories of
export controls, which include (1) national security, (2) foreign policy, and (3) short supply
based controls, and provide the authority for the “reasons for control” used in the EAR. The
foreign policy controls authorized by the EAA are not seen in the EAR as a specific “reason for
control,” but provide the statutory basis for other, specific reasons for control, such as missile
technology, chemical and biological weapons, crime control, and anti-terrorism controls.
National security and short supply are terms used by the EAA as a category of controls, as well
as in the EAR as specific “reasons for control.”




                                                17 

U.S. Department of Commerce                                                   Final Report IPE-17500

Office of Inspector General                                                              March 2006 



For each of these categories, the EAA imposes
particular criteria and limitations. Consequently,               CCL Reasons for Control
when a term such as “national security” is used as a
“reason for control,” it has a very specific meaning       • Anti-Terrorism (AT)
that reflects statutorily prescribed conditions and        • Chemical and Biological Weapons
limitations and does not necessarily coincide with           (CB)
general usage of the term. For example, the export         • Crime Control (CC)
of a particular item may raise national security           • Chemical Weapons Convention
concerns in the broad, general sense of the term,            (CWC)
but “national security controls” cannot be placed on       • Encryption Items (EI)
an item unless it meets specific requirements of the       • Firearms Convention (FC)
EAA. One such requirement for national security-           • Missile Technology (MT)
based controls is that multilateral controls (i.e.,        • National Security (NS)
Wassenaar Arrangement controls) must be in place           • Nuclear Nonproliferation (NP)
if the controls are to be in effect longer than six        • Regional Stability (RS)
months. By contrast, foreign policy-based controls         • Short Supply (SS)
may be imposed unilaterally, although other                • United Nation Embargo (UN)
conditions may apply.
                                                         Source: Export Administration Regulations

Part 742 of the EAR sets forth the licensing
requirements and policies for all reasons for control that are listed on the CCL for a particular
export control classification number (ECCN) (see box above). Read in combination with the
Commerce Country Chart, the reasons for control listed on the CCL for particular ECCNs
indicate whether a license is required to export an item to a particular country. For each reason
for control, the EAR provides a licensing policy that sets forth factors that will be considered
before approving or denying a license application. NS is the only reason for control that would
allow a license application for China to be denied solely on the grounds that the item may be
intended for military end-use.

China Cases of Concern

During our review, we identified two export license applications that raised general national
security concerns, which were approved because the items were not controlled for NS reasons in
the EAR. Details of the two cases are outlined below:

Case 1. The first case involved exporting 100,000 pounds of hydrofluoric acid solutions and
55,000 pounds of metal acid etchant solution to be used in the manufacturing of semiconductor
wafers. The chemicals are controlled for both chemical and biological (CB) weapons and anti­
terrorism (AT) reasons on the CCL. Supplement No. 1 to Part 738 of the EAR (the Commerce
Country Chart) provides that CB controls apply to China, but that AT controls do not. Section
742.4(b) of the EAR sets forth the licensing policy for CB reasons for control and provides that
license applications will be considered on a case-by-case basis to determine whether the export
would make a material contribution to the design, development, production, stockpiling or use of
chemical or biological weapons.



                                                18 

U.S. Department of Commerce                                                              Final Report IPE-17500

Office of Inspector General                                                                         March 2006 



Three of the four licensing review agencies (Commerce, Energy, and State) initially
recommended approval because there was no specific chemical and biological weapons
justification for denial. But Defense recommended denial so the case was automatically
escalated to the OC. At the November 2004 OC meeting, Commerce, Energy, and State
maintained their recommendations to approve the license application. Defense still had concerns
about the risk of diversion to unauthorized end users and/or end uses and escalated the
application to the ACEP. Derogatory intelligence presented at the December 2004 ACEP
meeting ultimately led all four licensing review agencies to deny the license application.

After the ACEP decision to deny the application, Commerce’s Office of Chief Counsel for
Industry and Security prepared an analysis concerning the regulatory basis for denial of an export
license for a CB-controlled item. The analysis summarized the licensing policy for CB-
controlled items, including the bases upon which a license may be denied. It stated that, “[i]f the
item is not controlled for national security reasons, it may not be denied solely on the grounds
that it may be intended for military end-use.”42 As a result, during the May 2004 ACEP meeting,
the four agencies reversed the decision to deny and instead recommended the license application
be approved with conditions “in light of the current export control regulations.”

Case 2. The second case involved the export of a gas analyzer to be used for analyzing
combustion of burning gases. The analyzer is controlled only for AT reasons and can be shipped
to China without a license.43 However, the transaction raised national security concerns with all
of the licensing review agencies.44 The exporter also was unable to verify the bona fides of the
end user, so BIS ultimately denied the license application in August 2003.

In September 2003, the U.S. exporter appealed the decision, arguing a license was not required
for the transaction. The former Under Secretary for Industry and Security re-opened the case and
sent it to the OC for further evaluation in January 2004. At the February 2004 OC meeting,
Commerce and Energy voted to return the license application without action because no license
was required, but Defense and State maintained their denials. Pursuant to authorities established
in Executive Order 12981, the OC Chairman decided to return the license application without
action because no license was required for the transaction.

The State Department formally objected to this decision and escalated the case to the ACEP. At
the March 2004 ACEP meeting, three of the four license review agencies (Defense, Energy, and
State) voted to deny this application but all agreed to have agency attorneys verify the legal basis
for the denial. Subsequently, attorneys from the various license review agencies reportedly met
and determined that there was no legal basis for requiring a license or for denying the license
application. Ultimately, all four licensing review agencies agreed to return the license
application without action.



42
   Memorandum for Operating Committee Chair from the Office of Chief Counsel’s Senior Counsel for Regulation, 

May 21, 2004. 

43
   The primary exception would be if there were concerns related to the Enhanced Proliferation Control Initiative 

(EPCI). However, EPCI was not a factor in this case. 

44
   The specific national security concerns are classified. 


                                                       19 

U.S. Department of Commerce                                                               Final Report IPE-17500

Office of Inspector General                                                                          March 2006 



Conclusion

While the two cases highlighted above had different licensing requirements, a denial on the
grounds of “national security” could not be sustained in either of these situations because the
items were not controlled for NS reasons under the CCL. Section 742.1(f) of the EAR provides
that items on the CCL, other than those controlled for short supply reasons, may be reviewed for
missile technology, nuclear nonproliferation, or chemical and biological weapons activities
regardless of the stated reason for control under the EAR. This is commonly referred to as the
“cross-over provision.” Therefore, items controlled for CB reasons may also be reviewed for
missile technology and nuclear nonproliferation reasons, but not for national security reasons.
There is currently no cross-over provision for items on the CCL to be reviewed for NS reasons if
they are not already controlled for such, and, as explained above, they cannot be controlled for
NS reasons without corresponding multilateral controls.

To address the problems highlighted above, BIS officials initially informed us that they were
proposing a new “catch-all” 45 rule or regulation that would address this weakness in the
regulations. Specifically, the draft rule would reportedly require exporters to apply for a license
for any exports to China whenever they knew the item was going to an end user or end use that
could make a material contribution to the Chinese military capability. However, while the
proposed “catch-all” rule was supposed to be based on the agreement reached in December 2003
by the Wassenaar Arrangement members, which was aimed at countries subject to arms
embargos, it appeared that the United States was mostly alone in applying the restrictions for
exports to China. Given the many complaints from U.S. industry concerning its intentions on
this matter, BIS is currently working with its interagency partners to draft a rule that would meet
the policy goal of denying U.S. exports to Chinese military end uses, while having the least
impact on U.S. exporters and their efforts to increase legal exports to Chinese civilian end users.

In the current security environment, the U.S. government should give the interagency licensing
review agencies explicit authority to deny licenses for items that can be used to enhance the
military capabilities of countries of concern, including China. This will require adding a military
“catch-all” similar to the proposed Wassenaar Arrangement catch-all rule or a “national security
cross-over” provision to the EAR. A military “catch-all” for China also will help BIS fulfill its
stated policy of denying “military-related” export license applications for exports to China.

RECOMMENDATION:

We recommend that BIS review the issue to determine whether it warrants regulatory revision,
such as the addition of a military “catch-all” provisions to the EAR for items that could
contribute to the development of conventional weapons but are not specifically controlled for
national security reasons, and implement the revision, as appropriate.
45
  At the urging of the United States, the 33 members of the Wassenaar Arrangement agreed to a Statement of
Understanding on the control of otherwise uncontrolled dual-use items in December 2003. The SOU requires
member countries to take appropriate measures to ensure that a government authorization is required for exports of
non-listed dual-use items for military end uses in destinations subject to (1) a binding United Nations Security
Council arms embargo, (2) any relevant regional arms embargo that is binding, or (3) any relevant regional arms
embargo to which a participating state has voluntarily consented to adhere.

                                                        20 

U.S. Department of Commerce                                                            Final Report IPE-17500

Office of Inspector General                                                                       March 2006 





In its written response to our draft report, BIS stated that it has completed its review of this issue
and incorporated the results in a draft rule that BIS is preparing with respect to China in
accordance with the Wassenaar Statement of Understanding regarding exports to countries
subject to arms embargoes. BIS anticipates final interagency agreement on the draft rule and
publication in proposed form for public comment by late spring 2006. We look forward to
reviewing a copy of the proposed rule when it is completed.


B.      BIS’ public statements regarding licenses to China are inconsistent with the EAR

Section 742.4(b)(7) of the EAR sets forth the licensing policy for exports to China of items
controlled for NS reasons on the CCL:

        For the People’s Republic of China, the general licensing policy is to approve
        applications, except that those items that would make a direct and significant
        contribution to electronic and anti-submarine warfare, intelligence gathering,
        power projection, and air superiority receive extended review or denial. Each
        application will be considered individually. Items may be approved even though
        they may contribute to Chinese military development or the end-user or end-use
        is military [emphases added].

By contrast, BIS officials have repeatedly stated that BIS does not approve export licenses to
military end users in China. In testimony presented to Congress in April 2005, the then-Acting
Under Secretary for Industry and Security stated that “BIS . . . does not approve licenses for
military end-users or end-uses within China.”46 Again in June 2005, testifying before the U.S.­
China Economic and Security Review Commission, he stated that “we do not approve any
licenses for military end-users or end-uses within China …”47 Several BIS officials reiterated
this policy to us during the course of our inspection.

As a result of this inconsistency, export control licensing policy for China is not transparent to
exporters, who must rely on the regulations to know whether a license is required, if an
application is likely to be approved, and what the regulatory standard will be for reviewing the
application. The inconsistency may also cause difficulties in implementation and application of
export controls and send mixed signals to our allies, trading partners, the U.S. Congress, and the
public.


46
   Testimony of The Honorable Peter Lichtenbaum, Acting Under Secretary for Industry and Security, United States
Department of Commerce, Before the House Armed Services Committee and the House International Relations
Committee on the “EU Arms Embargo Against China,” April 14, 2005. Available at
http://www.bxa.doc.gov/News/2005/PeterTmony4_14_05.htm, accessed March 7, 2006.
47
   U.S.-China Economic and Security Review Commission. U.S.-China Trade Impacts on the U.S. Defense
Industrial Base: Hearing Before the U.S.–China Economic and Security Review Commission, 109th Cong., 1st sess.,
23 June 2005. Washington, D.C.: GPO, 2005. Available at
http://www.uscc.gov/hearings/hearingarchive.php#hearings2005, accessed March 13, 2006.

                                                      21 

U.S. Department of Commerce                                                  Final Report IPE-17500

Office of Inspector General                                                             March 2006 



BIS agrees that the export licensing policy in the EAR may not fully reflect BIS’ existing policy.
BIS reported that it is aware of the issue and is examining the issue. BIS officials informed us
that it is likely to be addressed in the pending regulation mentioned in section A above.

RECOMMENDATION:

We recommend that BIS develop one consistent policy regarding exports to military end users or
for military end uses in China and amend the regulations as necessary to reflect that policy.



In its written response to the draft report, BIS stated that the draft rule implementing the
Wassenaar Statement of Understanding with respect to China referred to in its response to
recommendation one will also address this issue. Again, we look forward to receiving a copy of
the proposed rule when completed.




                                                22 

U.S. Department of Commerce                                                        Final Report IPE-17500

Office of Inspector General                                                                   March 2006 



II. 	   BIS’ End-Use Check Programs in China and Hong Kong Need to Be Improved

End-use checks can play an important role in helping to ensure that exported technologies are
protected from diversion to unauthorized end users or end use. Given the importance of both
China and Hong Kong in U.S. export control matters, BIS assigns one of its export enforcement
agents to each of these posts to conduct end-use checks. While the reluctance of the Chinese
government to allow end-use checks has historically precluded the U. S. government from
performing many checks, agreement to the End Use Visit Understanding48 by both countries in
April 2004 afforded BIS the ability to conduct end-use checks on a wider spectrum of licensed
goods and technologies. Nonetheless, a number of the terms for conducting end-use checks
outlined in the agreement are restrictive. In addition, during the time of our review, we found
many PLCs and PSVs to be untimely. A more extensive discussion of these issues is provided in
the classified Appendix C.

Furthermore, while we believe the posting of an ECO in Hong Kong has served to strengthen the
strong U.S.-Hong Kong cooperation on export control matters by providing consistency in U.S.
government operations there, we determined that BIS is not aggressively monitoring potential
diversions of export-controlled items from Hong Kong to China. Specifically, despite BIS’ end-
use check requirements for Hong Kong and the placement of an ECO in Hong Kong in March
2004, there were a low number of PSVs conducted in FY 2005. In addition, we determined that
BIS was not adequately targeting
                                                            . Finally, we noted that BIS does not
have a formal staffing plan in place to ensure continuity in its assignments of ECOs in Hong
Kong and China.


A. 	    End-use checks in China still face challenges

Due to the classified nature of the material discussed in this section, we offer our specific
findings related to this topic in the classified Appendix C to this report.


B. 	    BIS needs to more aggressively monitor potential diversions of export-controlled items
        from Hong Kong to China

As mentioned previously, the U.S.-Hong Kong Policy Act of 1992 calls upon the U.S.
government to continue to treat Hong Kong as a separate territory with respect to economic and
trade matters and to support Hong Kong’s continued access to sensitive technologies so long as
such technologies are protected. The Act also requires the Secretary of State to provide
Congress with periodic reports on conditions in Hong Kong, including any significant problems
in cooperation between Hong Kong and the United States on export controls. According to
State’s 2005 U.S.-Hong Kong Policy Act Report, end-use checks have been a key factor in
evaluating the effectiveness of Hong Kong’s export control system. Given the strategic

48
 The U.S. Department of Commerce and the Chinese Ministry of Commerce signed the End Use Visit
Understanding on April 12, 2004.

                                                   23 

U.S. Department of Commerce                                                            Final Report IPE-17500

Office of Inspector General                                                                       March 2006 



importance of Hong Kong as a key transshipment hub49 for both China and other countries, BIS
placed an ECO at the U.S. consulate in Hong Kong in March 2004.

However, based on our review of BIS’ Hong Kong end-use check program, we determined that
BIS is not aggressively enough monitoring potential diversions of export-controlled items from
Hong Kong to China.

Number of PSVs conducted in Hong Kong did not meet BIS’ requirement

In response to problems identified during previous OEE Sentinel trips, the former Under
Secretary for Industry and Security approved a decision memorandum, dated January 2004, from
the former Assistant Secretaries of Export Administration and Export Enforcement instituting
various export enforcement policies related to Hong Kong. With regard to end-use checks, OEE
and OEA were instructed,                                                         once the ECO
was stationed at post. In addition, OEA was instructed to initiate a




Although the ECO arrived at post in April 2004,

                                                          While OEA did initiate PLCs on new
non-governmental entities associated with export license applications to Hong Kong during FY
2005, it did not fulfill the PSV requirement. OEA’s Director for the China/Hong Kong Division

49
  A transshipment hub is a global commerce port that processes large volumes of shipments. Most transshipment
hubs are located near countries of concern. The proximity of transshipment hubs to destinations of concern
increases the risk of sensitive technologies being diverted or illicitly re-exported to those destinations.
50




                                                      24 

U.S. Department of Commerce                                                             Final Report IPE-17500
Office of Inspector General                                                                        March 2006


informed us that she did not learn of the Under Secretary’s guidance on end-use checks in Hong
Kong until July 2004. She also stated that her staff focused on meeting the PLC requirement
immediately and they did not put as much emphasis on the PSV requirement.

It should be noted that at some point in FY 2006, BIS made the decision to require all of its
ECOs,                                                                          . According to
the Deputy Under Secretary for Industry and Security, the rationale behind the

                      based on a “general rule of thumb.” Specifically, the expectation is that
the ECOs should                                                       Given that all of the
posts,                                                                                , it
appears that this new
performance metric may be rather
low (see Figure 9).

In a comparison of the five
overseas posts where BIS has an
ECO,

                        We noted
that prior Sentinel visits to
Hong Kong


                      For
example, the most recent Sentinel
visit to Hong Kong


        . Furthermore, during our
visit to Hong Kong in September
2005, we accompanied the ECO
on
              . As such, it seems reasonable that the ECO could conduct more than
                         —if headquarters requested them.

Lack of PSVs on “No License Required” Shipments

There are some commodities controlled for export to China that do not require a license to Hong
Kong. For example, exporters may export a range of items controlled for NS reasons, certain
high-performance computers, and some items controlled for chemical and biological reasons to
Hong Kong under the designation “No License Required” (NLR). By contrast, China is not
entitled to obtain any NS-controlled items on a NLR basis.

51
  BIS’ Sentinel program (formerly known as Safeguards) conducts on-site end-use check visits overseas using two-
person teams comprised of OEE special agents.

                                                       25 

U.S. Department of Commerce                                                              Final Report IPE-17500

Office of Inspector General                                                                         March 2006 



Given the concern about diversions of sensitive U.S. technologies from Hong Kong to China, it
seems reasonable that the U.S. government should target shipments for PSVs that may not
require a license to Hong Kong but would require a license to China. Toward that end,
                                                           However,      of the PSVs were
covered by a license exception and were eligible for re-export from Hong Kong to China without
a license. As a result, these checks were an inefficient use of ECO resources. Specifically, the
ECO ended up conducting checks on commodities that would not require a re-export license to
China at the expense of doing more checks on items that would. There appear to be two main
reasons for the poor targeting of NLR shipments to Hong Kong, including (1) inadequate upfront
research by OEA and (2) inadequate intelligence sharing between OEE and OEA.

Inadequate Upfront Research by OEA. With regard to Hong Kong, OEA mainly focused its
resources on reviewing actual export license applications submitted to BIS. OEA informed us
that it attempted to target some NLR shipments to Hong Kong that would require a license (or
re-export license from Hong Kong) to China, but had trouble doing so because of the limitations
in the Automated Export System (AES).52

AES is the automated system that U.S. exporters use to file their Shipper’s Export Declarations
(SEDs). Each SED must be filled out with relevant export transaction information, including (1)
the exporter’s contact information, (2) a description of the commodity to be exported, (3) the
consignee’s contact information, and (4) the shipment’s country of destination. If the
commodity involved requires a BIS export license, AES requires that a valid ECCN of up to the
first five digits be entered into one of the fields.53 If a license is not required, then the exporter
must note “NLR” or type in the applicable license exception on the SED. However, many
ECCNs contain subparagraphs that describe varying parameters of the items that might
determine whether NLR or a license exception may be used.

Because AES does not require (nor record) these subparagraphs, OEA is unable to definitively
know whether an item would qualify for shipment under NLR or a license exception.
Nevertheless, despite the known limitations in AES, OEA did not routinely contact U.S.
exporters for more information about particular transactions to determine if the export met a
license exception for China prior to initiating PSVs in Hong Kong.

We agree that having an expanded ECCN field within AES would allow OEA (or other export
enforcement officials) to better target PSVs that could identify questionable export transactions
whereby exporters might be misusing NLR or a license exception in attempts to divert the
licensed items to third countries. Both Census and OEA officials stated that they are open to the

52
   AES was primarily developed in 1994 by the U.S. Census Bureau and the former U.S. Customs Service for U.S. 

exporters and authorized agents to electronically file their Shipper’s Export Declarations (SEDs)—a Census form

used to compile trade statistics and assist in export enforcement matters. The AES mainframe that processes the 

export information belongs to U.S. Customs and Border Protection (one of the successor agencies to the U.S. 

Customs Service) while AESDirect, the Internet based application that collects and sends export information to

AES, belongs to Census. Census is the agency responsible for collecting, compiling, and publishing export trade 

statistics. AES is the primary media used for collecting export data. 

53
   An ECCN typically consists of one number, followed by one letter and then three consecutive numbers (e.g., 

4A101). 


                                                       26 

U.S. Department of Commerce                                                  Final Report IPE-17500

Office of Inspector General                                                             March 2006 



possibility of working together to modify AES by expanding the ECCN field. However, pending
the outcome of any AES modification, OEA should obtain as much information upfront about a
NLR transaction from the exporter prior to initiating a PSV request.

Inadequate Intelligence Sharing between OEE and OEA. During the course of our review,
we found that OEE had information that may have been useful to OEA for targeting end-use
checks (including NLR shipments) in Hong Kong. However, OEE did not forward that
information to OEA until after our discussions with OEE about it. We have included this
discussion in a classified appendix to this report (see Appendix D).

Conclusion

Based on discussions with BIS officials and various U.S. officials at the U.S. Consulate in Hong
Kong, the United States has close and beneficial relations with the Hong Kong Customs &
Excise Department and the Hong Kong Trade & Industry Department which provides the basis
for Hong Kong’s continued access to exports of controlled U.S. technologies. The U.S.
government remains committed to continuing its existing export control policy toward Hong
Kong, consistent with the provisions of the U.S.-Hong Kong Policy Act, as one means of
demonstrating its support for Hong Kong’s autonomy.

Nonetheless, some U.S. government officials have raised concerns about the actual and potential
risk of diversion of sensitive technologies through Hong Kong. These concerns center on
China’s possible use of Hong Kong to obtain sensitive technologies illicitly and as a medium
through which to ship controlled technologies to other countries of concern. While we believe
the posting of an ECO in Hong Kong has served to strengthen the strong U.S.-Hong Kong
cooperation on export control matters, it is important for the United States to aggressively
monitor trade with Hong Kong to ensure that exported technologies are protected from diversion
or misuse. Therefore, we believe BIS needs to use its available resources as effectively as
possible to ensure that end-use checks reflect the full range of U.S. export control concerns in
Hong Kong.

RECOMMENDATIONS:

We recommend that BIS take the following actions to improve its end-use check program in
Hong Kong:

• 	 Increase the number of end-use checks that should be conducted in Hong Kong based on past
   performance;
• 	 Improve the targeting of end-use checks in Hong Kong through (a) adequate upfront research
    on no-license-required shipments prior to post shipment verification requests, (b) enhanced
    and continuing intelligence sharing between its Office of Export Enforcement and its Office
    of Enforcement Analysis; and (c) the utilization of intelligence information to help identify
    appropriate end-use checks; and,
• 	 Work with the U.S. Census Bureau to modify the Automated Export System to expand the
    Export Control Classification Number field from the current five digits to eight digits.


                                                27 

U.S. Department of Commerce                                                  Final Report IPE-17500

Office of Inspector General                                                             March 2006 





In its written response to our draft report, BIS stated that it generally agreed with our
recommendation to reevaluate the number of end-use checks that should be conducted in Hong
Kong based on past performance. In addition, BIS’ response stated that in December 2005 BIS
Export Enforcement reassigned an analyst to assist on Hong Kong end-use check targeting. It
also noted that the upcoming reorganization of BIS’ Office of Enforcement Analysis, including
the selection of a senior executive service-level director, would result in an increase in the
quantity and quality of BIS resources supporting license reviews and end-use checks. The
response further stated that quality is as important as quantity in selecting end-use checks and
that it is important to target and select meaningful end-use checks that provide BIS with the most
targeted and relevant information possible to assist in making license decisions or in detecting
potential diversions to unauthorized end uses or end users. We agree that quality end-use checks
are a critical component to BIS’ end-use check program in Hong Kong and, as discussed below,
are encouraged by BIS’ commitment to focus on this matter. However, in addition to ensuring
good quality end-use checks are conducted, it is also important for BIS to ensure that it conducts
an appropriate number of end-use checks in Hong Kong given the placement of an ECO there
and the need to monitor Hong Kong’s ability to maintain an effective and transparent export
control regime. As noted in our report, it appears that BIS’ current performance metric of
conducting 50 end-use checks a year may be rather low given past performance and as a result,
we modified our recommendation in this area to encourage BIS to increase this number.

With regard to better targeting of end-use checks in Hong Kong, BIS’ written response stated
that it agreed with our recommendations and is already taking steps to improve efforts in this
area. Specifically, the response stated that based on feedback received during a conference with
all BIS Export Control Officers in October 2005, Export Enforcement revised its overall
targeting and selection of end-use checks to the locations where its ECOs are located, including
Hong Kong. In addition, BIS noted that the upcoming reorganization of OEA is designed in part
to improve coordination between OEA and OEE on sharing intelligence information which will
help to identify appropriate end-use checks in Hong Kong. To this end, and prior to the formal
completion of the reorganization, OEA and OEE reportedly began joint weekly meetings in
December 2005 to review all available export control intelligence information to ensure
maximum coordination between the two offices.

Furthermore, BIS stated that it agrees with our recommendation for BIS to work with the Census
Bureau to determine the applicability of modifying the Automated Export System to expand the
Export Control Classification Number field from the current five-digits to eight-digits. Towards
that end, BIS reported that it is drafting the regulatory changes necessary to implement this
recommendation and will soon publish an Advance Notice of Proposed Rule Making in the
Federal Register to solicit comments from industry on the impact of expanding the Automated
Export System fields. BIS stated that it will also consult with the Census Bureau in developing
this regulation. Again, as noted in our report, this modification should better enable OEA or
other export enforcement officials to better target PSVs that could identify questionable export




                                               28 

U.S. Department of Commerce                                                             Final Report IPE-17500

Office of Inspector General                                                                        March 2006 



transactions whereby exporters might be misusing a license exception in attempts to divert the
licensed items to third countries. We are encouraged by BIS’ actions to date and look forward to
reviewing the advance notice of proposed rule when complete.


C.          BIS needs to improve staffing continuity for its operations in Hong Kong and China

BIS does not have a formal staffing plan to help ensure continuity in its ECO assignments in
Hong Kong and Beijing, China.54 Currently, there is no pool of talent within BIS (e.g., personnel
with both Mandarin Chinese language skills and export enforcement experience) from which to
draw replacement ECOs. The ECO position is a limited non-career position within CS.
Normally, the ECO position is a two-year assignment (with possible extensions). BIS’ first ECO
in Hong Kong was originally scheduled to depart post in March 2006; however, he has recently
extended his tour until May 2006, thus lessening the gap between the time he leaves and the
placement of his successor. In addition, the term of the current Beijing ECO expires in
December 2006.

Interruptions in carrying out in-country BIS operations have and may continue to occur without a
plan to ensure continuous staffing of the ECO positions. With respect to China, end-use checks
must be scheduled and conducted per the terms of the End Use Visit Understanding, making it
important to continuously staff that position. Since 2001, there have been two gaps of 3-months
duration in BIS operations in China (see Figure 10). Specifically, in September 2001, the first
ECO’s term in Beijing expired. Though BIS had already selected a special agent with Mandarin
Chinese language skills from one of its domestic field offices, that agent was unable to assume
his post immediately upon the ECO’s departure. The second gap occurred in September 2004
when the second ECO resigned his post. In December 2004, BIS hired a special agent with
Mandarin Chinese language ability from another federal agency already stationed at post.
During both of these gaps, BIS relied on CS staff to conduct end-use checks.

Figure 10: Gaps in BIS Operations in China

               2001             2002                 2003                       2004           2005


                                 New ECO                                                         New ECO
     ECO’s                       assumes                                                         assumes
     assignment                  position,                   ECO resigns                         position,
     ends, 9/14/01               12/30/01                    position, 9/8/04                    12/28/04
                     Vacancy                                                       Vacancy

Source: Bureau of Industry and Security and the U.S. & Foreign Commercial Service


ECOs stationed in Hong Kong and Beijing are normally required to have export control
knowledge and skills needed to conduct end-use checks and handle other necessary export
control responsibilities. In addition, it is highly desirable for these ECOs to have Mandarin
54
  While our review focused only on Hong Kong and China, this issue may also be applicable for the ECO
assignments in Abu Dhabi, United Arab Emirates; Moscow, Russia; and New Delhi, India.

                                                      29 

U.S. Department of Commerce                                                               Final Report IPE-17500

Office of Inspector General                                                                          March 2006 



Chinese language ability. While CS informed us that both Hong Kong and Beijing are language-
designated posts for its officers, the ECO positions are not language-designated positions.

However, the November 2005 vacancy announcement for the Hong Kong ECO position stated
that “[a]pplicants proficient in the host country language, Chinese, are highly desired.”
However, it should be noted that for a candidate with no Mandarin Chinese language ability to
attain the CS language requirement for either Hong Kong or Beijing would entail specialized
language training of up to one year.

Prior to establishing the ECO position in Hong Kong, BIS relied on CS staff and Sentinel teams
to conduct end-use checks there. However, as stated in section B of this Chapter, the posting of
an ECO in Hong Kong has served to further strengthen the strong U.S.-Hong Kong cooperation
on export control matters by providing consistency in U.S. government operations there. In
addition, it may be difficult to use Sentinel teams to conduct end-use checks in China given the
current terms of the End-Use Visit Understanding (see Appendix C for our assessment of end-
use checks in China). Further, given the importance of conducting end-use checks in a timely
manner by knowledgeable personnel, the use of occasional Sentinel teams may not suffice.

BIS knew of the Hong Kong ECO’s planned departure since the summer of 2005; however, it
did not post a vacancy announcement for this position until mid-November 2005. In February
2006, the Deputy Under Secretary for Industry and Security informed us that BIS had identified
a candidate for the ECO position in Hong Kong. This individual is an attorney but does not have
law enforcement experience or Mandarin Chinese language skills.55 Given the 10 weeks of basic
law enforcement training the new ECO will have to undertake and other pre-travel requirements
(e.g., security and medical clearances), he is not expected to arrive at post until July 2006. While
the process is moving forward, BIS needs to develop a plan to avoid future gaps in assignments
in these two critical, overseas posts.

RECOMMENDATION:

We recommend that BIS develop a staffing plan to provide continuity in the stationing of
qualified export control officers in Hong Kong and China to avoid interruptions in operations
and initiate that plan at least 6 to 12 months before the end of the term of the departing export
control officer.



In its written response to our draft report, BIS agreed with our recommendation and stated it will
include as a critical element in the performance plan of the OEE coordinator of the ECO program
a requirement to coordinate and prepare the necessary vacancy announcements 6 to 12 months
prior to the end of each ECO’s assignment. However, BIS noted that it may be difficult creating
a pool of qualified ECOs for future assignments given the relatively small size of its personnel,

55
  In addition to seeking candidates with Mandarin Chinese language ability, the vacancy announcement called for
candidates with specialized experience in conducting criminal investigations and a knowledge of U.S. export control
laws and regulations.

                                                        30 

U.S. Department of Commerce                                                    Final Report IPE-17500

Office of Inspector General                                                               March 2006 



and, therefore, cautioned that future gaps in coverage may still occur. However, BIS did state
that in order to minimize the impact of any future gaps in assignments, it will ensure that there is
coverage in place in case of such a vacancy. We acknowledge BIS’ concerns in this regard and
appreciate its commitment to ensure maximum coverage in future ECO assignments.




                                                 31 

U.S. Department of Commerce                                                              Final Report IPE-17500

Office of Inspector General                                                                         March 2006 



III.    BIS’ Monitoring of License Conditions Could Be Enhanced

The EAR states that an export license may be limited by conditions on the use of the export. The
ability to place conditions on a license is an important part of the license approval process as
well as an additional means to monitor certain shipments. Frequently, the conditions are the
result of lengthy negotiations among the licensing referral agencies.

Of the 55 possible standard conditions, six require the exporter to submit documentation to BIS
regarding the shipment. For example, two require the exporter to provide different types of
delivery verification documents; one involves notification to BIS after the temporary
demonstration of a U.S. item overseas; one requires notification to BIS after the return of an
aircraft on temporary sojourn to a foreign country; one involves the submission of a post
shipment report on exports of high-performance computers to certain countries; and one involves
the submission of a shipper’s export declaration (SED) following shipment of the item (so that a
PSV can be initiated). A seventh condition – referred to as “Write Your Own” (WYO) – allows
licensing officers (LO’s) to formulate unique requirements, which may include reporting
requirements for either the exporter or the end user. Licenses with reporting conditions are
tracked in either Export Administration’s or Export Enforcement’s Conditions Follow-up
Subsystem within ECASS.56

In our FY 1999 export licensing report and FY 2003 export enforcement report,57 we found that
Export Administration and Export Enforcement were not consistently monitoring licenses with
reporting conditions and therefore were not following up with exporters to ensure compliance.
In response to our recommendations, both EA and EE instituted procedures to (1) regularly
monitor licenses with reporting conditions that are marked for follow-up by LOs and (2) follow-
up with exporters to request any necessary reporting documentation.

Within EA, the Office of Exporter Services (OExS) is responsible for monitoring exporter
compliance with five of the seven reporting conditions, including WYO conditions that have
reporting requirements. Of these five conditions, four involve the submission of routine
documentation, such as delivery verification, that do not require a level of technical expertise to
verify. If an LO marks a license with any of these conditions, the license is automatically
entered into EA’s Follow-up Subsystem.

By contrast, WYO conditions may sometimes contain substantive reporting requirements, such
as maintenance reports and technology control plans, which require some level of technical
review. For these conditions, the LO must choose “yes” or “no” in the WYO screen indicating
(1) whether the condition requires follow-up and (2) whether the documentation requires an
LO’s review. The license is only entered into EA’s Follow-up Subsystem if the LO marks “yes”
for “follow-up” required.

56
   Licenses requiring exporters to submit post shipment reports on high-performance computer exports to certain
countries are monitored separately from Export Enforcement’s Conditions Follow-up Subsystem.
57
   U.S. Department of Commerce Office of Inspector General (Commerce OIG), June 1999. Improvements Are
Needed to Meet the Export Licensing Requirements of the 21st Century, IPE-11488; Commerce OIG, March 2003
Improvements Are Needed to Better Enforce Dual-Use Export Control Laws, IPE-15155.

                                                       32 

U.S. Department of Commerce                                                  Final Report IPE-17500

Office of Inspector General                                                             March 2006 



Within EE, the Office of Enforcement Analysis (OEA) is responsible for monitoring licenses
marked with the remaining reporting conditions— the submission of post shipment reports on
high-performance computer exports to certain countries, referred to as “Condition 34,” and of
SEDs, which is referred to as “Condition 14.” Licenses with Condition 14 require a PSV on a
specific foreign entity following the first shipment made against the license. Exporters are
required to submit a copy of the shipment’s SED directly to OEA, which then initiates the PSV.


A. 	    BIS should ensure that there is a technical review of technical documentation
        submitted by exporters or end users pursuant to license conditions

We reviewed all China export license applications processed at the OC and ACEP during FYs
2004 and 2005 and identified 15 that had WYO reporting conditions (excluding Condition 14).
Of the 15 cases involving such reporting conditions, four involved the submission of
documentation confirming the delivery of shipments, which could be verified by OExS staff.
However, 11 cases involved license conditions with more technical reporting requirements, but
none of them were marked for LO review. Aside from LO review, there is no procedure in place
to provide technical review of the documentation to ensure that exporters or end users are in
compliance with license conditions.

The reporting requirements, which were incorporated into the WYO condition of each license,
were designed to address particular concerns that either BIS or other licensing referral agencies
had about the parties to the transaction or about the transaction itself. In some cases, the
condition was designed to address concerns about unauthorized exports or re-exports. Two
licenses had conditions that required the end-user or consignee to develop and implement a
technology control plan prior to shipment. In another situation, a licensing referral agency was
concerned that the item would not be used for its stated purpose, prompting a condition
addressing the specific nature of the risk addressed to the exporter, end-user, or both. Other
conditions required the submission to BIS of (1) quarterly shipment reports of the exported
commodity, (2) an annual report summarizing demonstrations of the item and any measures
taken to ensure its security, or (3) a quarterly report on how the item was being utilized.

While these reporting conditions are placed on the exporter and/or end user, BIS does not require
any form of technical review of the documentation submitted to ensure that it meets the
requirements of the condition. In fact, OExS staff informed us that although LOs have the
opportunity to review the documentation, they rarely mark them for review. Without a technical
review to ensure compliance, the purpose of placing reporting conditions on the license is
defeated.

RECOMMENDATION:

We recommend that BIS put procedures in place to provide for a technical review of technical
documentation submitted by exporters and end users to ensure their compliance with license
conditions.



                                                33 

U.S. Department of Commerce                                                               Final Report IPE-17500

Office of Inspector General                                                                          March 2006 





In its written response to our draft report, BIS agreed that there may be instances where a
technical review of documentation submitted pursuant to license conditions may be warranted.
BIS stated that it would conduct an internal assessment, scheduled for completion by May 12,
2006, to determine an appropriate process for conducting technical reviews. We acknowledge
BIS’ effort and would appreciate a copy of the review results upon their completion.


B. 	    China post shipment verification license conditions were not properly marked for
        follow-up

As noted earlier, licenses with PSV conditions are marked with Condition 14 and are
automatically entered into EE’s Conditions Follow-up Subsystem for subsequent monitoring.
However, based on our review of China OC and ACEP licenses, we identified five licenses that
required PSVs but were not properly marked by the LO with Condition 14. Instead, the text of
the PSV condition for each license was recorded in the WYO condition, which, as discussed
previously, does not automatically add a license to either EE’s or EA’s Conditions Follow-up
Subsystem. These errors occurred despite the fact that each export license application is
reviewed and signed off by a countersigner (typically a division director) to ensure that license
applications are processed appropriately. For example, countersigners are responsible for
ensuring that license conditions agreed upon at the OC are reflected accurately in the license
application.

Of the five licenses, initial shipments were made against three of them – one in November 2004
and two in April 2005.58 Although the LOs responsible for these licenses neglected to mark
Condition 14 on the 5 licenses, it appears that the exporters were compliant in these three cases
by submitting copies of their SEDs. Normally, under Condition 14, exporters are instructed to
submit copies of SEDs to OEA. However, each of these three licenses contained language
instructing the exporter to submit the documentation to OExS. As such, OEA staff stated that it
was not aware that any of these licenses had a PSV condition. Had Condition 14 been marked
for each license, standard language about the SED requirement (including instructions to submit
the documents directly to OEA) would have been included automatically in the list of license
conditions that is provided to the exporter. In addition, each license would have been placed in
EE’s Conditions Follow-up Subsystem for OEA to monitor.

According to “step-by-step procedures” instituted by OExS in response to a recommendation
from our FY 2003 export enforcement report, OExS’ staff are required to forward to OEA a copy
of any license requiring a PSV that has been erroneously marked under the WYO condition
along with a standardized memorandum addressed to the Director of OEA notifying him of the
error. However, OExS could not find records of having forwarded to OEA copies of these five
licenses. OExS staff informed us that if they receive follow-up documentation (which would

58
   Per OExS, exporters had not shipped against the remaining two licenses as of January 17, 2006. However, export
licenses are normally valid for two years from the date of approval and at the time of our review, none of the five
licenses had expired.

                                                        34 

U.S. Department of Commerce                                                 Final Report IPE-17500

Office of Inspector General                                                            March 2006 



include SEDs) for a license that is not marked for follow-up, the documentation is scanned and
archived in a document storage system separate from ECASS without a review. Subsequent to
our inquiry, OExS forwarded copies of all five licenses and the three SEDs that had been
submitted by exporters to OEA.

Without Condition 14 on a license, OEA staff members do not know that a PSV is required when
it is written as a WYO condition and, as a result, a PSV cannot be initiated for the license. In
addition, with regard to the specific cases cited above, because of the time that elapsed between
the date of shipment and OEA’s receipt of the aforementioned SEDs from OExS, OEA informed
us it was not able to proceed with a PSV request for any of the Chinese end users associated with
these three licenses because of the terms of the End-Use Visit Understanding. (See Appendix C
for more information on this issue.)

RECOMMENDATIONS:

We recommend that BIS take the following actions to improve its efforts to monitor exporter
compliance with license conditions:

• 	 Review the process of marking and countersigning license applications with Condition 14 to
    identify and correct any weaknesses to ensure that these license applications are properly
    entered into Export Enforcement’s Followup Subsystem and monitored by the Office of
    Enforcement Analysis.
• 	 Ensure that the Office of Exporter Services promptly forwards to the Office of Enforcement
    Analysis any copies of shipper’s export declarations that are submitted by an exporter.



In its written response to our draft report, BIS stated that on March 16, 2006, it had issued
guidance to Licensing Officers and Counter Signers in the form of an email reminding them of
the proper procedures for marking Condition 14 and other standard license conditions. While
this action partially meets the intent of our recommendation, the response did not discuss
whether BIS would review its current process of countersigning licensing applications to ensure
that standard license conditions, including Condition 14 and other reporting conditions, are
accurately recorded into ECASS and, if applicable, entered into the appropriate conditions
follow-up subsystem for monitoring. We would appreciate receiving the results of BIS’ review
of its license countersigning process in its action plan.

With regards to our recommendation on forwarding SEDs to OEA, BIS’ written response stated
that staff in the Operations Support Division of the Office of Exporter Services was issued
guidance in the form of an email on March 16, 2006, requiring them to forward such documents
to OEA within 48 hours of receipt to ensure that PSVs are initiated promptly.




                                               35 

U.S. Department of Commerce                                                 Final Report IPE-17500
Office ofInspector General                                                             March 2006


IV.	   NlST and NOAA Conduct Various Activities Pursuant to the 1979 U.S.-Cbina
       Science and Tecbnology Agreement

Pursuant to our mandate under the NOAA for FY 2003, we sought to determine what activities
Commerce bureaus were engaged in pursuant to the 1979 U.S.-China S&T Agreement and, to
the extent practicable, whether they are adhering to export control regulations. Within
Commerce, there are two bureaus - 1ST and NOAA - that maintained active protocols under
the agreement during FYs 2004 and 2005.

We found that NIST appears to be complying with deemed export control regulations with
respect to activities undertaken pursuant to the 1979 S&T Agreement. Specifically, the EAR­
controlled items we reviewed at NIST appeared to be protected from Chinese foreign national
visitors. We found that NOAA still is in the process of developing its export control compliance
program; however, NOAA has reportedly placed access controls on all EAR-controlled
technology where foreign nationals are present, including Chinese nationals.

We also found that em 10 ees from both NIST and NOAA who traveled to China




A.	    N1ST's Sciellce ami Techllology exchallge activities with Chiml

One ofNIST's core missions is to exchange information and collaborate on research with similar
institutions all over the world to provide products and services of the highest quality. Thus,
through its Foreign Guest Researcher Program, NIST offers foreign scientists, including Chinese
foreign nationals, the opportunity to work collaboratively with NIST scientists. The Office of
International and Academic Affairs oversees all ofNIST's interactions with foreign entities and
persons and coJlects information on foreign national visitors and guest researchers at 1ST.

During FYs 2004 and 2005, NIST had one active protocol with China's General Administration
of Quality Supervision,lnspection, and Quarantine in place.61 Signed on December 9, 2003, this
protocol supports cooperation in the fields of metrology and standards. However, the protocol is
very general, and specific activities 1ST conducts with its Chinese counterpart organizations
and their researchers-such as conferences and joint research projects-are not always identified




                                               36

U.S. Department of Commerce                                                                 Final Report IPE-17500

Office of Inspector General                                                                            March 2006 



in relation to it. Several NIST employees we interviewed were not even aware that the protocol
is in place.

Many Chinese Foreign Nationals Visited NIST During FYs 2004 and 2005

As with all foreign nationals, NIST categorizes Chinese foreign nationals who visit its facilities
into two main groups: short-term visitors who are at NIST for 10 days or less, and long-term
visitors who are at NIST for 11 days or more.62 NIST further segregates long-term visitors into
four sub-categories: (1) “foreign guest researchers”, (2) “facility users”, (3) “contractors”, and
(4) “Cooperative Research and Development Agreement (CRADA) participants.”63 (See Table 3
for a breakdown of the number and types of Chinese foreign national visitors recorded by NIST
during FYs 2004-2005.)

Long-Term Visitors. During FYs 2004 and 2005, a total of 209 long-term Chinese foreign
national visitors were at NIST’s Gaithersburg, Maryland, and Boulder, Colorado, campuses.
NIST’s Material Science and Engineering Laboratory hosted 146 of them. Of those, 50 were
foreign guest researchers and 95 were facility users at the NIST Center for Neutron Research.
The remaining one visitor worked as a CRADA participant at the NIST Center for Neutron
Research.

Short-Term Visitors. NIST recorded a total of 352 Chinese foreign nationals visiting NIST
facilities on a short-term basis during this same two-year period.64 These Chinese visitors
comprised approximately 11 percent of the 3,230 short-term foreign visitors from over 100
countries who came to NIST during FYs 2004 and 2005. Most of the Chinese short-term visitors
came from China’s General Administration of Quality Supervision, Inspection and Quarantine;
the Chinese Academy of Sciences; other Chinese governmental organizations and laboratories;
or universities.




62
   NIST did not explicitly identify Chinese foreign national visitors as participants of protocol-driven activities.
Therefore, our review included all Chinese citizens visiting NIST during FYs 2004-2005, excluding those who were
permanent U.S. residents.
63
   Foreign scientists who are invited to conduct research at NIST are called “foreign guest researchers”. “Facility
users” refers to researchers who come to NIST on a short-term basis—10 days or less—to utilize NIST facilities and
equipment available for public use and include foreign citizens. (Although they are technically short-term visitors,
NIST places them into the long-term category. If facility users require more than 10 days to complete their research,
NIST will reclassify them to “foreign guest researcher” status, which requires additional security assurance
reviews.) “Contractors” are researchers who are temporarily employed via a sole-source provider to conduct
specific research tasks requested by NIST researchers. Finally, while NIST generally does not allow foreign
nationals to participate in CRADAs—which may include publication restrictions that could subject the research to
export controls—exceptions can be made.
64
   NIST’s Office of International and Academic Affairs and the Mountain Region Security Office—which maintains
records of foreign national visitors to NIST’s Boulder, Colorado, campus— stated that their records of short-term
Chinese national visitors during FYs 2004-2005 might be incomplete because NIST’s operating units may not
always report these visitors to their offices. Further, this figure does not capture all conference attendees at NIST.

                                                         37 

US. Department 0/ Commerce                                                                   Final Repon IPE-17500
Office 0/ Inspector General                                                                            March 2006


EAR-Controlled Items Appear to Be Protected

According to NIST, no Chinese foreign national visitors had access to EAR-controlled items in
FYs 2004 and 2005 that would have required a deemed export license. Since the issuance of our
FY 2004 report on deemed exports,65 NIST's Emergency Services Division has developed and
maintained an inventory of 129 EAR-controlled items. Most of the EAR-controlled items
identified by NIST were controlled for "physical" exports to China, with some of them also
controlled for "use" technology that would require a deemed export license.

We inspected 12 of the 129 EAR-controlled items at the Gaithersburg, Maryland, campus to
determine whether Chinese foreign national visitors could possibly have access to the controlled
technologies. 1ST reported that all short-term Chinese foreign national visitors are escorted by
NIST personnel at all times, minimizing the possibility that they would have undetected access
to EAR-controlled technologies. Although long-term Chinese foreign national foreign guest
researchers could gain access to some rooms or laboratories that contained EAR-controlled
items, those items were locally secured
                    In addition, although we found that Chinese foreign national facility users
and a few Chinese foreign national foreign guest researchers did have access to certain
laboratory equipment that involved EAR-controlled items, it appears that the technology
remained protected.

For example, the Neutron Spin Echo Spectrometer
at the 1ST Center for Neutron Research (see
photo to the right) contains three tri-axial Ouxgate
magnetometers that are controlled for ''National
Security" reasons by the EAR. However, we were
told by the Director of the Center that the items­
with the dimensions of approximately 3cm x 3cm
x 20cm-are embedded deep inside the massive


_.66
apparatus, and the entire noor area is under
constant surveillance
            Moreover, although these items were
controlled for exports to China, they were not
controlled for "use" technology, and thus, deemed
                                                                  The Neutron Spin Echo Spectrometer at the NIST
                                                                  Center for Neutron Research
export controls were not applicable in this case.

In addition to the development of an inventory for its EAR-controlled equipment, NIST recently
implemented a program to conduct "upfront" review of its research activities. 67 Specifically,
  1ST laboratory managers conduct reviews ofNIST researchers' ongoing and foreseeable
upcoming research to determine whether technology used andlor created by NIST researchers

65 U.S. Department of Commerce, Office of Inspector General. Deemed Export Controls May Not Stop the Transfer

a/Sensitive Technology to Foreign Nationals in the u.s., IPE-16176, March 2004.

66 The NIST Center for Neulron Research is subject 10 the Nuclear Regulatory Commission's regulations for

facilities wilh nuclear source material. NIST officials said that the entire facilitr is under 24·hour surveillance.


RThis program was initiated in response   10   the OIG's 2004 report on deemed   ~x:ports.
                                                          38
U.S. Department of Commerce                                                              Final Report IPE-17500

Office of Inspector General                                                                         March 2006 



and their staff (which includes foreign guest researchers) are subject to U.S. export control laws.
These findings are then recorded in the NIST researchers’ performance plans by their managers.
If it is determined that any of the technology to be used and/or created during NIST research
activities is controlled for export control purposes, NIST would either seek a deemed export
license or protect the technology from disclosure to foreign nationals, as appropriate. However,
with two cycles of performance reviews conducted in the spring and fall of 2005, NIST informed
us that it did not identify any instances where a deemed export license would be required for on­
going or upcoming research.


B.      NOAA’s Science and Technology exchange activities with China

Staff at five of NOAA’s line offices68 collaborate internationally on many projects and issues.
Pursuant to the 1979 U.S.-China S&T Agreement, Chinese foreign nationals may visit or work at
NOAA research facilities or data centers to undertake joint research projects. Conversely,
NOAA scientists and other staff may travel to China to promote the exchange of scientific or
technical information through activities such as lectures, collaborative projects, and participation
in workshops and conferences.

NOAA has entered into two protocols pursuant to this agreement. The first protocol, with the
China Meteorological Administration, is managed on the U.S. side by the National Weather
Service (NWS) and covers the field of atmospheric science and technology (subsequently
referred to as the atmospheric protocol). The second protocol, with China’s State Oceanic
Administration, is managed on the U.S. side by the Office of Oceanic and Atmospheric Research
(OAR) and covers the field of marine and fishery science and technology (subsequently referred
to as the marine and fisheries protocol). We surveyed a sample of U.S.-China S&T activities at
NOAA’s Silver Spring and Camp Springs, Maryland facilities in order to assess the bureau’s
compliance with export controls. Although our survey focused on export compliance as it relates
to Chinese foreign nationals, we found that NOAA has made progress in fulfilling the
recommendations made in our March 2004 deemed export report.

Chinese Nationals Visit NOAA Within and Outside the Protocols

To facilitate our survey, OAR and NWS provided us with lists of Chinese foreign national
visitors and guest researchers with access to their facilities both within and outside of the S&T
protocols. During FYs 2004 and 2005, 73 Chinese foreign nationals visited NWS facilities under
the atmospheric protocol, while 48 Chinese foreign nationals visited OAR facilities under the
marine and fisheries protocol. An additional 77 Chinese foreign nationals visited the NWS and
OAR facilities for activities outside the protocols.



68
  The five NOAA line offices referred to above include the National Ocean Service, the National Weather Service,
the National Marine Fisheries Service, the Office of Oceanic and Atmospheric Research, and the National
Environmental Satellite, Data, and Information Service. NOAA’s sixth line office, Program Planning and
Integration, does not engage in international projects.

                                                       39 

U.S. Department of Commerce                                                                 Final Report IPE-17500

Office of Inspector General                                                                            March 2006 



We interviewed six officials who, together, had sponsored 27 current and former Chinese foreign
national visitors and guest researchers. Based on our interviews, it appears that most of these
particular individuals were involved with computer and software development, operations, and
support, rather than laboratory research. Much of their work involved routine activities to
support daily NOAA operations, such as writing computer programs using publicly available
information and open source software to translate daily weather satellite data. Similarly, those
who did conduct research, reportedly worked with publicly available information only, such as
weather and climate data, and published all of their results. However, it should be noted that
NOAA plans to develop a process in FY 2006 to review all of its research to determine the
applicability of deemed export control issues.

EAR-Controlled Equipment and Technologies at NOAA Have Been Partially Inventoried

In response to our FY 2004 deemed export recommendations, NOAA established a Deemed
Export Steering Committee in mid-2005 to coordinate compliance with dual-use export controls.
The Steering Committee, which is composed of senior NOAA managers and staff, instructed
each of NOAA’s line offices plus the Office of Marine and Aviation Operations to (1) conduct a
NOAA-wide inventory review of technology and software, (2) develop technology control plans
governing access to export-controlled technologies, and (3) identify all foreign nationals with
access to their facilities.

With its operations encompassing over 800 physical locations (including NOAA’s ships and
airplanes), NOAA divided its export compliance review into two phases, beginning with Priority
1 sites, defined as any location that either has foreign nationals present or contains critical
infrastructure. This included any NOAA facilities where research is conducted and foreign
nationals are present. By December 2005, NOAA had completed its inventory of equipment and
technology at Priority 1 sites, and specifically identified 132 EAR-controlled items in various
locations, including some in which Chinese foreign nationals were present.69 NOAA made a
preliminary determination that no deemed export licenses were required, but also submitted this
assessment to BIS for a final review. According to NOAA, on February 16, 2006, BIS provided
favorable feedback regarding NOAA’s inventories and assessment, including NOAA’s
conclusion that there are no instances where deemed export licenses are needed for any foreign
nationals currently working in NOAA facilities. NOAA managers at these locations have
reportedly secured their EAR-controlled equipment to prevent foreign national access, pending
the implementation of formal access control plans, which were submitted to NOAA’s Office of
the Chief Administrative Officer on December 12, 2005, for review.70 According to the hosts we
interviewed, none of the Chinese foreign nationals they were hosting had access to EAR-
controlled “use” technology.




69
   Officials at one location reported having items controlled under ECCN 4A994 but did not provide a specific count
of the items involved. However, they also reported no foreign nationals present at that location.
70
   According to a January 2006 status report in response to our FY 2004 deemed export report, NOAA is
formulating a strategy to conduct inventories at its remaining facilities, known as “Priority 2” sites, and intends to
carry out those inventories in FY 2006.

                                                         40 

U.S. Department of Commerce                                                    Final Report IPE-17500

Office of Inspector General                                                               March 2006 



Employees involved in the inventory review process attended a two-day, intensive export control
training session provided by BIS. Although NOAA has not yet implemented export-control
awareness training for all employees, those we interviewed, including those who hosted Chinese
foreign nationals or traveled to China, had at least a general awareness of export controls.

NOAA Presentations Reviewed by OIG Appear to Involve Publicly Available Information

NOAA Administrative Order (NAO) 201-32G states that each line office is “responsible for the
scientific and technical quality of materials they originate and provide for the scientific review of
manuscripts prior to releasing them for publication in NOAA and non-NOAA media.” Staff we
interviewed said that their managers do review their presentations before they are released to
ensure technical accuracy and consistency with NOAA policies. Furthermore, they stated that
the information contained in those presentations involved publicly available information;
therefore, export controls would not apply. We reviewed several NOAA presentations that had
been delivered at public forums in China as part of S&T activities and found that they appear to
contain only publicly available information.

Chinese Foreign National Access to NOAA Facilities Appears to Adhere to Departmental Policy

OSY officials at NOAA and Commerce headquarters said that Chinese foreign national visitors
and guest researchers are allowed unescorted access into NOAA facilities only after the
completion and adjudication of a background investigation. Those who have not been cleared by
OSY are required to sign in daily, receive and wear visitor stickers, and be escorted by their
respective hosts. According to OSY, one-day foreign national visitors or open conference
attendees at NOAA facilities normally are not required to undergo background investigations
prior to receiving access because those foreign nationals are supposed to be either escorted by
their hosts or prevented by the guard force from accessing areas where only authorized NOAA
employees or contractors are allowed. According to OSY, NOAA is complying with the escort
requirement; however, due to time constraints, we were unable to verify whether these
procedures were being followed for Chinese foreign nationals at NOAA facilities.




                                                 41 

U.S. Department of Commerce                                                     Final Report IPE-17500

Office of Inspector General                                                                March 2006 



                           SUMMARY OF RECOMMENDATIONS 


We recommend that the Under Secretary for Industry and Security ensure that the following
actions are taken:

1) 	 We recommend that BIS review the issue to determine whether it warrants regulatory
     revision, such as the addition of a military “catch-all” provision to the EAR for items that
     could contribute to the development of conventional weapons but are not specifically
     controlled for national security reasons, and implement, as appropriate (see page 17).

2) 	 We recommend that BIS develop one consistent policy regarding exports to military end
     users or for military end uses in China and amend the regulations as necessary to reflect that
     policy (see page 21).

3) 	 Increase the number of end-use checks that should be conducted in Hong Kong based on past
     performance (see page 23).

4) 	 Improve the targeting of end-use checks in Hong Kong through (a) adequate upfront research
     on no-license-required shipments prior to post shipment verification requests, (b) enhanced
     and continued intelligence sharing between its Office of Export Enforcement and its Office
     of Enforcement Analysis; and (c) the utilization of intelligence information to help identify
     appropriate end-use checks (see page 23).

5) 	 Work with the U.S. Census Bureau to modify the Automated Export System to expand the
     Export Control Classification Number field from the current five-digits to eight-digits (see
     page 23).

6) 	 We recommend that BIS develop a staffing plan to provide continuity in the stationing of
     qualified export control officers in Hong Kong and China to avoid interruptions in operations
     and initiate that plan at least 6 to 12 months before the end of the term of the departing export
     control officer (see page 29).

7) 	 We recommend that BIS put procedures in place to provide for a technical review of
     technical documentation submitted by exporters and end users to ensure their compliance
     with license conditions (see page 33).

8) Review the process of marking and countersigning license applications with Condition 14 to
   identify and correct any weaknesses to ensure that these license applications are properly
   entered into Export Enforcement’s Followup Subsystem and monitored by the Office of
   Enforcement Analysis (see page 34).

9) Ensure that the Office of Exporter Services promptly forwards to the Office of Enforcement
   Analysis any copy of a shipper’s export declaration that is submitted by an exporter
   (see page 34).



                                                 42 

U.S. Department of Commerce                                              Final Report IPE-17500

Office of Inspector General                                                         March 2006 



                                       APPENDICES

                                   Appendix A: Acronyms

               ACEP 	               Advisory Committee on Export Policy
               AES         	        Automated Export System
               AT	                  Anti-Terrorism
               BIS 	                Bureau of Industry and Security
               CB      	            Chemical/Biological
               CCL	                 Commerce Control List
               CIA        	         Central Intelligence Agency
               EAR          	       Export Administration Regulations
               ECASS 	              Export Control Automated Support System
               ECCN 	               Export Control Classification Number
               ECO          	       Export Control Officer
               FY      	            Fiscal Year
               IPE       	          Inspections and Program Evaluations
               LO      	            Licensing Officer
               MOFCOM	              Ministry of Commerce, People’s Republic of China
               NDAA 	               National Defense Authorization Act
               NAO           	      NOAA Administrative Order
               NIST 	               National Institute of Standards and Technology
               NLR          	       No License Required
               NOAA            	    National Oceanic and Atmospheric Administration
               NS      	            National Security
               NWS           	      National Weather Service
               OAR 	                Office of Oceanic and Atmospheric Research
               EA      	            Export Administration
               EE      	            Export Enforcement
               OEA 	                Office of Enforcement Analysis
               OC       	           Operating Committee
               OIG 	                Office of Inspector General
               OSY-NIST 	           (Commerce) Office of Security at NIST
               PLC         	        Pre-License Check
               PSV         	        Post shipment verification
               WINPAC 	             Center for Weapons Intelligence, Nonproliferation, and
                                    Arms Control
               S&T            	     Science and Technology
               SED            	     Shipper’s Export Declaration




                                             A-1 

           March 2006 

Final Report IPE-17500





                                                                                                  0 Days                                  9 Days                                         39 Days                                  90 Days
                                                                                                         Pre-                       License, Deny, or                              License, Deny, or                         License, Deny, or
                                                                                                        License                          Return                                         Return                                    Return
                              Appendix B: Interagency Dual-Use Export Licensing Process




                                                                                                        Check
                                                                                                        (PLC)
                                                                                              BIS Initial                                     Not
                                                                                              Screening/          Enforcement                 Referred                                                                                        Post
                                                                                              Technical             Review                                                                                                                 Shipment
                                                                                               Review                                                                                                                                      Verificatio
                                                                                                                                                                    CIA
                                                                    n (PSV)
                                                                                                                                                                Information




                                                                                                                                                                            

                                                                                             (Registration                                                                                               Disagree
                                                                                                                                       Decision                                         Decision
                                                                                                  of
                                                                                                                                         (1)                                              (2)
                                                                                             Application)




                                                                                                                                                                                                                                                                                               B-1

                                                                                                                   Initial Case                                Referral Process                                     Dispute Resolution Process
                                                                                                                    Analysis                                         CIA
                                                                                                                                              Referred
                                                                                                                                                                  Defense                                    OC => ACEP => EARB => President




                                                                                                                                                                              

                                                                                                                                                                   Energy           Recommendations          (3)    (4)     (5)       (6)




                                                                                                                                                                        
 
 

                                                                                                                                                                   Justice
                                                                                                                                                                    State
U.S. Department of Commerce




                                                                                                                                                                                                                                                         Source: Office of Inspector General
                                                                                                                                                                    PLC
Office of Inspector General




                                                                                          (1) On or before day 9 of registration, BIS must refer the application or issue, deny, or return without action (RWA) the license.
                                                                                          (2) On or before day 39 of registration, the referral agencies must provide BIS with a recommendation.
                                                                                          (3) On or before day 40 of registration, the application can be referred to the Operating Committee, which has 14 days to make a recommendation.
                                                                                          (4) On or before day 59 of registration, the application can be referred to the Advisory Committee on Export Policy, which has 11 days to make a decision.
                                                                                          (5) On or before day 75 of registration, the application can be sent to the Export Administration Review Board, which has 11 days to make a decision.
                                                                                          (6) On or before day 90 of registration, the application can be escalated to the President.
                                                                                          Executive Order 12981 provides several circumstances for stopping these time frames, such as obtaining additional information from the applicant.
U.S. Department of Commerce                                                  Final Report IPE-17500

Office of Inspector General                                                             March 2006 



                              Appendix C: End-Use Checks in China




                     This appendix classified at the CONFIDENTIAL level 

                and is available separately from the Office of Inspector General. 





                                               C-1 

U.S. Department of Commerce                                                  Final Report IPE-17500

Office of Inspector General                                                             March 2006 





           Appendix D: Intelligence Sharing Issues for End-Use Check Targeting




                  This appendix is classified at the SECRET/NOFORN level 

                and is available separately from the Office of Inspector General. 





                                               D-1 

U.S. Department of Commerce                                         Final Report IPE-17500

Office of Inspector General                                                    March 2006 



                              Appendix E: BIS Management Response




                                              E-1

u.s. Depar/men/ of Commerce                                                                      Final Repor/IPE-J7500
Office of Inspec/or General                                                                                 Marc" 2006




                         IlUREAU OF INDUSTRY AND SECURITY COMJ'lENTS:

                      U.S. Oual-USE EXllort Controls for China Nft'd to Ill.' Stl'1'ngthl.'lll.'d

                             Drart Illspt't'tion Report No. IPE-17500, March 2006


             I'art 1- Rrsponsr IG Ite<:ommrndations

             Prior to publication of this repon, the Bureau orJndustl)' and Securily (BIS) had already
             and independently taken steps to meet many of the report's recommendations. BIS will
             also begin steps to meet the remaining recommendations

             R«onullendation I: We recommend thai SIS review the issue [Qfchanging the
             regulations to oermit denial solely on the basis ofmilitary end-usc jfthc exWrtcd ilem Qr
             technology is not controlled for NS reasonsllo determine whether il warrants regulatory
             revisiQn. such as the additioll oCa military "catch-all" provisioDs 10 the EAR for items
             lhal could contribute 10 the deyelopment of conventional weapons but arc not spccificallv
             controlled for national security reasons (see page 17),

             DIS Resl>OIlSt': B1S has completed its review of the issue and incorporated the rcsults in
             a draft rule that BIS is preparing in order to implement with respect to China the
             Wassenaar Statement Qf Und<."(standing rt1!-arding exports to countries subject to anllS
             embargoes. BIS anticipatcs final interagency agreement on the draft rule and publication
             in proposed foml for public comment by latc spring 2006.

             Recommendation 2: Wc rccommcnd Ihat SIS dcyclop onc consistcnt policy regarding
             expQn5 10 militan' end users or for military end uses in China and amend the regulations
             as necessary 10 reni."t that policy (see p..Al1,~.

             SIS Response: The draft rule referred to in the response 10 Recommendation I will also
             address this issue.

             Rrcommendation 3: Reevaluate the number ofend-u~e checks thaI should be cQnduged
             in lIong. Kong based on pasl pcrfonnance (see page 23).

             BIS Rf'Sp<lnse: BIS generally agrees with this recommendation and is already taking
             steps consistent with it For example. on December 15, 2005, SIS's Expon Enforcement
             reassigned an analyst to assist on Hong Kong end-use check targCling. [n addition, the
             upcoming reorg.lnizatiQII QfBIS's Office of Enforcement Analysis (OEA). includin~ the
             selection of an SES-Ievel director. will result in an increase in the quantity and quality of
             SIS rcsources supponing license reviews and end-use checks.

             Quality is as imponam as quantity in selecting end-use checks, It is imponam to target
             and select meaningful end-use checks thaI provide SIS with the most targeted and
             relevalll intormation possible to assist in making licensing decisions or in detecting
             potcmial diversions to unauthorized end-uses or end-users. Therefore, SIS focuses on the
             quality ofchecks to ensure maximum security benefit.




                                                          E-2
U.S. Department of Commerce                                                                     Final Report IPE-J 7500

Office ofInspector General                                                                                 March 2006





             The report also highlights a limitation 131S faces in targeting and selecting meaningful
             post-shipment verifications (PSVs) in Hong Kong due to the lack of sub-paragraph
             bpon COlllrol Classification Number (ECCN) information in the Automated Expon
             Syslcm, BIS's response to this constraint is detailed below in response to
             Recommendation 5.

             Rc>collllllendation 4: Improve the targeting of end-use checks in Hong Kong through (a)
             adC<.luate upfront research on no·liccnse-reguircd shipments prior to pasl shipment
             verificalion requests. (b) enhanced and continued intelligence sharing between its Oflice
             QfExpQO Enforcement and its Oflice of EnfQrcement Anal)(sis: and (c) Ihe utjliutiol\ of
             inl£lli n info rmati n h 1[1 identify, appropriate end-usc checks (sec page 23)
             BIS Response: I3IS agrees wilh the IG recommendalion and is already taking steps to
             improve targeting of end-usc checks. Based all feedback received during a conference
             with all BIS Expon Control Otlicers (ECOs) in Washington. DC, in October 2005.
             Expon Enforcement rt:'vised its o\"lCfall targeting and selectiQn of end·use checks to the
             locations where our ECOs are located, induding HQng Kong.

             In addition, the upcoming reorganization ofOEA is designed in pan to improve
             coordination bctw~n OEA and the Office of Export Enforcemcnt (OEE) on sharing
             intelligence information which will help to identify appropriarc end-use checks in I-long
             Kong and elsewhere. To this end. lind prior to the formal completion orthe
             reorganizatiQn, OEA and OEE bcganjoint weekly meetings in December 2005 to review
             all available expon control intelligence information to ensure maximum coordinatiQn
             between the two onices

             Please see the Confidential attachment for additional comments on this recommendation.

             R«omllltlldatioll 5: Work with the U,S, Census Bureau to determine the applicabilit\"
             and CQsts aSSQciated wilh modifving the Automated E"pon SYSlem to expand the Expo!]
             Control Classification Number field fmm the current five-digits fQ eight-digits (see page
             m
             illS Re.~ponse: BIS agrees with the IG recommendation and is already taking steps to
             fill this gap. SIS is drafting the regulatQry changes necessary 10 implement this
             recommendation and will soon publish an Advance Notice of Proposed Rule Making ill
             the Federal Register to solicit comments froln industry Qn the impact of expilnding
             Automated Export System fields. BJS ,...i11 also consult with the Census Bureau in
             develQping this re~'Ulation.

             Recolllmendation 6: We rccommend Ihat BlS d(:velop Ii slaOiny_planlo provide
             continuity in the SHuioning ofr;JUalificd CXIKl" CQntrol oflicC1"s in Hong Kong and China
             10 avoid interruptions in operations and initiale thai plan at least 6 10 12 months before
             the end of the term of the d('Qaning. expon control officer (see Qage 2ln,




                                                          E-3
u.s. Depurtment of Commerce                                                                    Fina} Report IPE-17500
Office of Inspector Gelleru}                                                                              Marcil 2006




             81S Responsl': DIS agrees with Ihis IG recommendation. OEE will specilically include
             as Qne Qfthe critical clements Qfthe performance plan for the OEE coordinator for SIS
             ECOs a requirement to coordinate and prepare the necessary vac..'1ney announcements 6 10
             12 months prior to the end of each ECO's assignment.

             However, it is imponam 10 nOte that nQ staffing plan can cover eve!)' contingency DIS
             currently has fewer than 400 personnel, so is unlikely to be able to create a ready pOQI of
             language-qualified ECOs that can be deployed on shon notice. Thus, it is reasonable 10
             assume that, despile the best eITons of 131 S, gaps in ECO coverage will occasionally
             occur In order 10 minimize the impact of such gaps. BIS will ensure that there is
             coverage in place in case of such a \.-"3.cancy.

             RecolllllleudllliOll 7: We recommend thai I3!S put procedures in place 1(1 provide for a
             technical review of technical dQcumemation submiued by exponers and end-users to
             ensure their compliance and liccnse conditions (see page 31)

             81S ReSI}()llse: BIS agrees that there may be instances where technical review of
             documentation submitted pursuant to a license condition is warranted. BIS plans to
             complete an internal assessmenf by May 12.2006. to determine the appropriate process
             for conducting these rcviews.

             Rfiommendation 8: Review the process of marking and countersigning license
             applications with Condition 14 to identify and correct any weaknesses to ensure that
             these license applications are oropert.... enlered into Expon EnfQrcement's FQIlQw,up
             Subsystem and monitored by the Office of Enforcement Analvsis (see pal;e 32),

             81$ Response: On March 16, 2006, SIS issued guidance to Licensing Officers and
             Counter Signers reminding them of the proper procedures for marking Condition 14 and
             other Standard Conditions. A copy of that guidance is attached.

             Recommendation 9: Ensure that Ihe omce QfExooner Services promptly forwards 10
             Ihe Office of Enforcement Analysis any copy ora shim~er's eXB0rl declaration thai is
             submiucd by an expoocr (sec p~.

             HIS Response: On March 16. 2006, the Operations Suppon Division (OSD) of Expon
             Enforcement's Office ofExponer Services was issued guidance requiring staff to forward
             Shipper's Export Declaration/Automated Expon System (SEDJAES) documents to OEA
             within 48 hours of receipt OSD was also instructed to place a copy ofllle documents
             and the transmittal memo in the Multipurpose Archival Records Retrieval System
             (MARRS). which is the permanent record retention SySlem for documents related tQ
             expon applications and classifications. A copy oflhis guidance is attached.




                                                         E-4
U.S. Department of Commerce                                     Final Report IPE-17500

Office of Inspector General                                                March 2006 



                         Appendix F: NOAA Management Response




                                         F-1 

U.S. Department of Commerce           Final Report IPE-17500

Office of Inspector General                      March 2006 





                              F-2 

